No. 19-639
IN THE SUPREME COURT OF THE UNITED STATES
Linda Shao Petitioner - Appellant,
vs.
Tsan-Kuen Wang, Respondent - Appellee.
-000-

On Petition For A Writ Of Certiorari To the California Sixth District
Court of Appeal regarding its Opinion on June 4, 2019 in H040977
affirming Superior Court of California, Santa Clara County Judge
Theodore Zayner's Order of March 14, 2014 made without a hearing on
the Remittitur dated January 27, 2012 in H035194, an appeal from
Judge Edward Davila's Order of September 2009 (S256743 denied
review on August 14, 2019)
REQUEST FOR RECUSAL OF CHIEF JUSTICE JOHN G. ROBERTS,
JUSTICE CLARENCE THOMAS, JUSTICE RUTH BADER
GINSBURG, JUSTICE SAMUEL AUTO, JUSTICE STEPHEN
BREYER, JUSTICE SONIA SOTOMAYER, JUSTICE ELENA KAGAN
YI TAT SHAO, ESQ. In proper
SHAO LAW FIRM, PC 4900
Hopyard Road, Ste. 100 Pleasanton, CA 94588-7101
Telephone (408) 873-3888
FAX: (408) 418-4070
Email: attornevshao@aol.com

1

Table of Contents
I. ADVERSE INFERENCE PRESUMPTIONS BASED ON ALTERATION OF
THE COURT'S RECORDS UNDER THE DOCTRINE OF SPOLIATION OF
EVIDENCE—CONCEALMENT OF 151 PAGES FROM THE APPENDIX OF
THIS PETITION PROVES EXISTENCE OF THE SOURCE OF THE
CONFLICTS OF INTEREST—FINANCIAL INTEREST RECEIVED
DIRECTLY FROM THE AMERICAN INNS OF COURT AND INDIRECTLY
FROM JAMES MCMANIS WHO HAS IN FACT MANIPULATED THE
ENTIRE PROCEEDINGS FROM CALIFORNIA COURTS TO THIS COURT. 11
Adverse inference presumption under the Doctrine of Spoliation of Evidence
11
18 USC §1519 endorsed the doctrine of spoliation of evidence

13

The Clerk's Office has a statutory duty to file and maintain the records which
14
cannot be curtailed by a court's local rule
Spoliation of evidence in this Petition created a presumption that these
Justices are disadvantaged by non-concealment of the evidence, including
evidence of their conflicts of interest and their conspiracy with James McManis,
who is the leader of the hacker, California Sixth District Court of Appeal, Judge
Theodore Zayner, Judge Patricia Lucas, Respondent's counsel David Sussman,
and Santa Clara County Court, and that they are part of the conspiracy and are
16
active in concealing the evidence of conspiracies.
Appendix 1 (from App. 1 through App.30): statutes, including those
statutes of illegal alteration of court's records, illegal dismissal, Code of
Judicial Conduct, Rule of Professional Conduct Rule 5-300 that will prove the
17
function of American Inns of Curt being illegal
Appendix 4 (from App.33 through App. 52): "Notice of Errata" to the
Petition for Rehearing which was filed on June 25, 2019; California Sixth
District Court promptly denied rehearing on the same date after receipt of this
18
Notice of Errata
Appendix No. 5: "The Attachment 01 and 04 to the Petition for
Rehearing that were altered by hacker/courts" in App.53-56

2

20

Appendix No. 6: "The Sixth District Appellate Court's illegal oral
argument waiver notice of May 6, 2019 that was banned by California
Supreme Court about 15 years ago."

21

Appendix 9: Declaration of Meera Fox on Judiciary Conspiracies, filed
with California Sixth District Court of Appeal on 4/27/2017 (App.100-146) 22
Appendix 10: "Respondent's counsel David Sussman's admission of
illegal night time ex parte communication on August 4, 2010, the date WHEN
Shao was illegally deprived of child custody by judge Edward Davila."
22
(App.No. 147-150)
Appendix No. 11: Orders of Judge Edward Davila filed on August 5,
2010, without any hearing, in response to David Sussman's ex parte
23
communications. (App. No. 151-153)
Appendix No. 12: Temple Bar Scholars & Reports (American Inns of
Court's website): Financial conflicts of interest of the Justices at the US
Supreme Court for sponsoring gift solicitation of their clerks at the American
23
Inns of court.
Appendix No. 13 (App.No.164-166): "Temple Bar Scholarship webpage
published by American Inns of Court: Gifts provided to US Supreme Court
Clerks based on their judiciary position; Temple Bar Scholarship—a gift
illegally targeting at the judiciary position of the Clerks at the US Supreme
24
Court."
Appendix No. 14 (App.No. 167-168) : "McManis Faulkner's News
Release Which Shows the close relationship between James McManis and
Chief Justice John G. Roberts; this News Release was purged from McManis
24
Faulkner's website in late January 2019" (App.167-168)
Appendix No. 15 (App.No. 1169-173): "Selected Portion of the
deposition transcript of James Mcmanis on July 20, 2015"

25

Appendix 16: Selected portion of the deposition transcript of the expert
26
witness of McManis Faulkner: Carroll J. Collins, III, Esq
Appendix 17: "Michael Reedy was a speaker for the American Inns of
27
Court" (App.No. 174)

3

Appendix No. 18: "Letter to Judge Patricia Lucas Asking a Hearing Date
for A Motion to Change Place of Trial on Shao v. McManis et al. 2012-1-cv27
220571 of June 22, 2017" (App.175-76)
Appendix No. 19: "SHAO's Application for her return of $10,000
undertaking that was ignored by Judge Theodore Zayner."

28
28

CONCLUSION
II. THE CONCEALING 151 PAGES OF APPENDIX IN THIS PETITION
WERE INTENTIONAL AS SUCH PURGING HAVE BEEN
SYSTEMATICALLY REPEATED AT LEAST 6 TIMES IN THE PAST IN
PETITIONS 18-800, 18-569, 18-344, 17-613, 17-256, AND 17-82
A. "A continuum of fault" of "intentionality"

29
29

1. Repeated irregularities in 7 Petitions supports the intentionality of this
Court as supervised by Chief Justice Roberts.

29

2. Same scheme of irregularities was shown in each court where James
McManis is a defendant

31

At this Court, where the Petition for Rehearing and Requests for Recusal
31
documented the irregularities
California Supreme Court:

33

California Sixth District Court of Appeal:

33

Santa Clara County Court:

34

The Ninth Circuit

36

The U.S.D.C. in the District of Columbia in the case of 1:18-cv-01233

36

The DC Circuit in 19-5014

37

3. The concealment of the clear and convincing evidence of the California
courts' crimes in this Petition 19-639 is presumed to be made with
39
intentionality
4. The fact that this hacker had close relationship with the courts is
corroborated by the recent discovery that the person who entered into the
docket of 2012-1-cv-220571, Shao v. McManis at Santa Clara County Court
the prefiling vexatious litigant order of June 16, 2015 more than 2 years later
40
was a contractor to Santa Clara Court and not a clerk.
4

Respondent Wang appeared to have hired the hacker and actively
participated in burglarizing the home of Petitioner.
Police report of 2019-65103 was concealed

41
41

The burglars had a history of hacking into Petitioner's computers and hard
43
disc to delete at least 44,024 files as testified by an engineer
These felons further burglarized Petitioner's car on December 14, 2019
including trespassing into two computers and opened the steering wheel of the
car 43
B. Existence of this Court's knowledge that the Clerk's Office should maintain
the entire records and not to select partial of records to be published by this
Court's Website is proven by the complete filing in the Petitions for Rehearing in
17-256 filed on November 22, 2017, in 17-613 filed on December 9, 2017, in
44
18-344 and 18-569 filed in 2018.
C. In contrast, the Clerk's Office's removal of the Appendix for the Petition for
Rehearing 18-800 is apparently caused by intervention of James McManis
pursuant to the adverse inference presumption under the doctrine of spoliation of
45
evidence
D. The Request for Recusal of 17-256 was withheld from filing by 4 days and
then when eventually filed, Jeff Akins removed ALL appendix (supporting
46
evidence for recusal) and filed it with a date of December 8, 2017
Story of how the Request for Recusal in 17-256 was withheld from filing
and then filed with all appendixes removed (discussed in pages 13 and 14 of
47
the Request for Recusal in 17-613)
The Appendixes concealed from publication for the Request for Recusal in
48
17-256
E. Continual purging evidence—removing all appendix for the Request for
Recusal of 17-613

56

Altering the decision date from April 28, 2017 to June 8, 2017 then altered
56
again to April 28, 2017
Jeff Atkins's instruction of removal of the names of James McManis and
Michael Reedy as Respondents in 17-613 indicates this Court's conflicts of
5

interest with James McManis and Michael Reedy that requires recusal, or at
least investigation.
58
1.c. Jeff Atkins removed all appendixes for both the Request for Recusal filed
during the Petition for Writ for Certiorari proceeding and the Renewed Request
for Recusal filed during the Petition for Rehearing proceeding
58
3. This Courts' Clerk's Office's de-filing of the Amicus Curiae Mothers for
Lost Children's motion in 17-613 on December 9, 2017, corroborated the
illegal operation of this Clerk's Office and supports existence of the
"intentionality" as well as existence of the conflicts of interest derived from
the Justices' relationship with James McManis and Michael Reedy
69
Intentional deterrence of filing of the motion of the Amicus Curiae Mothers
of Lost Children in 17-82 supports the intentionality of this Court's spoliation of
evidence.
70
These Justices knowingly failed to decide on the Amicus Curiae motion of
Mothers of Lost Children in 18-569, the child custody appeal case, as well as
each and every Requests for Recusal filed in 17-256, 17-613, 18-344, 18-569 and
18-800, in addition to its refusing to file in 18-344 and holding on filing in 17256 by a month, corroborated the intentionality of this Court in spoliation of
72
evidence and constitutes ground of disqualification
Continuance of the fault in that all appendixes of the Request for Recusal in
Petitions 17-256, 17-613, 18-344, 18-569, 18-800 were removed
75
ADVERSE PRESUMPTION OF CONFLICTS OF INTEREST THAT
MANDATES RECUSAL
ACTUAL PREJUDICE MANDATES RECUSAL
The Clerks' Office has at least 7 times in purging court's records, as
discussed above. In this Petition, 151 pages of Appendix were concealed

83
84
85

This court as led by Chief Justice Roberts has failed to decide the Amicus
85
Curiae motion of Mothers of Lost Children in 18-569
This Court as led by Chief Justice Roberts has discriminated against
Petitioner in failing to decide 7 Requests for Recusal

85

The dismissal of the DC Circuit Case of 19-5014 and the USDC in DC's case
of 1:18-cv-01233 are likely caused by Chief Justice John G. Roberts, Justice
6

Clarence Thomas and Justice Ruth Bader Ginsburg who are alumni judges of the
DC Circuit
85

TABLE OF AUTHORITIES
Cases
13
692 F.2d at 218
12
Armory v. Delamirie, 1 Strange 505, 93 Eng.Rep. 664 (1722)
13
Bondu v. Gurvich, 473 So.2d 1307 (Fla.Dist.Ct.App. 1984)
Caperton v. A. T. Massey Coal Company, 556 US 868 (2009)
74, 83
Corner v. Murphy Oil USA, 607 F.2d 1049, 1057 (5th Cir. 2010)
74
15
Critchley v. Thaler, 586 F.3d, 318 (5th Cir. 2009)
Earnest v. U.S. Attorney for the S. Dist. Of Alabama, 474 U.S. 1016 (1985) (J.
73
Powell)
15
Jackson v. United States, 924 A.ed 1016 (2007)
15
Lowe v. Letsinger, 772 F.2d 308 (1985, 7th Cir)
15
Mullis v. United States Bank Ct., 828 F.2d 1385 n9 (9th Cir. 1987)
National Ass'n of Radiation Survivors v. Turnage, 115 F.R.D. 543, at 557
11
(N.D.Cal. 1987)
National Education Assoc. v. Lee County Board of Public Instruction, 467 F.2d
74
477 (5th Cir. 1972)
Nation-Wide Check Corp. v. Forest Hills Distributors, Inc., 692 F.2d 214, 216-20
12
(1st Cir. 1982)
74
O'Hair v. Hill, 641 F.2d 307 (5th Cir. 1981) in ft.1
35
Shalant v. Girardi, 51 Ca1.4th 1164, 1173-74 (2011)
13
Smith v. Superior Court, 151 Cal.App.3d 491, 198 Cal.Rptr. 829 (1984)
12
Stanojev v. Ebasco Services Inc., 643 F.2d 914, 923-24 & n.7 (2d Cir. 1981)
73
State v. Allen, 2010 WI 10 at Page 35 (2010)
Stier, Revisiting the Missing Witness Inference, 44 Md. L. Rev. at 142 & n.22 12
75
Tanner v. United States, 483 U.S. 107 at P.128
17, 24, 29
Welsh
17
Welsh v. US
11
Welsh v. US (1988, 6th Cir.) 844 F.2d 1239
15
Wickware v. Thaler, 404 Fed. Appx. 856, 862 (5th Cir. 2010)
7

Williams v. California, 34 Ca1.3d 18, 664 P.2d 137, 192 Cal.Rptr. 233 (1983)
Yates v. U.S., 135 S.Ct. 1074 (2015),

13
14

Statutes
18 U.S.C. §1519
18 U.S.C. §371
18 U.S.C. §371, §1001, §1519, and §2071
18 USC §1519
18 USC §2071
28 USC§455
California Government Code §68150(c)
California Government Code §68150(d)

9, 29
9, 75
11
13
15
74
15
16

Other Authorities
Comment, Spoliation: Civil Liability for Destruction of Evidence, 20
U.Rich.L.Rev. 191 (1986)

13

Rules
F.R.C.P. Rule 5(d)(4)
Fed.R.Evid. 401
FRAP Rule 45
FRAP Rule 45(a)(2)
FRCP Rule 79
FRCP Rule 79(a)(1), (d)
Guide to Judiciary Policies, §§620.25, 620.30, 620.35, 620.45, 620.50, 1020.30
Rule 5-300 of California Rules of Professional Conduct
TABLE OF APPENDIX

15
13
15
15
15
15
17
17

Exh.001
Wells Fargo Bank Receipt on May 8, 2019 of "WANG"
Exh.002-005 Certified copy of all police dispatching records to Petitioner's home
Exh.006-010 Timeline received by Hayward Police Department on September 13,
2019 for the police report
Exh.011-044 Supplemental Timeline received by Hayward Police Department on
September 16, 2019 for the police report
Exh. 037-044 Declarations of Jonathan Lo about internet hackings

8

TO CHIEF JUSTICE JOHN G. ROBERTS, JUSTICE CLARENCE
THOMAS, JUSTICE RUTH BADER GINSBURG, JUSTICE SAMUEL
ALITO, JUSTICE STEPHEN BREYER, JUSTICE SONIA
SOTOMAYER, JUSTICE ELENA KAGAN:
Petitioner respectfully requests recusal of Chief Justice John G.
Roberts, Justice Clarence Thomas, Justice Ruth Bader Ginsburg,
Justice Samuel Alito, Justice Stephen Breyer, Justice Sonia Sotomayer,
Justice Elena Kagan based on actual prejudice suffered by Petitioner
that these Justices apparently (1) have been actively involved in
violation of 18 U.S.C. §1519 in repeatedly altering the court files filed
by Petitioner including this Petition and in altering the docket of 17613, (2) have repeatedly violated 18 U.S.C. §371 in directing the Clerk's
Office not to file the Request for Recusal for 17-82, and in refusing to
perform their Constitutionally-mandated duty in willfully declining to
decide on any and all of the Requests for Recusal as well as the Motion
filed by Amicus Curiae Mothers of Lost Children in 18-569, (3) have
been involved in the illegal dismissal of appeal of the appeal case of 195014, and in the illegal sua sponte dismissal made by Judge Rudolph
Contreras where these Justices were directly benefited.
Besides the aforementioned actual prejudice, Petitioner's request
for recusal is also based on conflicts of interest where they have
undisclosed relationship with the Interested Third Party James
McManis, through the American Inns of Court, and their financial
interest with the American Inns of Court.
This appeal was mishandled by California Sixth District Court of
Appeal systematically as shown in 18-800, 18-569 and 18-344. This
9

appeal was illegally dismissed once by California Sixth District Court of
Appeal (H040977) on March 14, 2016, the same date when the court
dismissed the child custody appeal (H040395). 11 months later,
California Sixth District Appellate Court again attempted dismissal by
generating a false docket for both H040977 and H040395. Both
appeals are from the same family court case of Shao v. Wang. As for
the child custody appeal, despite the outrageous violation of due process
where California Sixth District Court of Appeal dismissed with
fraudulent forbearance of notices from the knowledge of Petitioner,
these Justices refused to decide on the Requests for Recusal in 18-569
but went ahead to deny the Petition.
In April 2017, Expert witness Meera Fox, Esq. reviewed the
evidence available that time and opined that the irregularities in the
two appeals (H040395 and H040977) proved the illegal judiciary
conspiracy at least among the prior Presiding Justice Conrad Rushing,
the Appellate Unit of Santa Clara County Court and McManis Faulkner
law firm if not the individual attorneys (James McManis and Michael
Reedy). However, her opinion as shown on App. No. 100-150 of the
Petition, was illegally removed by this Court from being the Court's
Record.
According to the adverse inference presumed under the doctrine of
spoliation of evidence, as will be discussed below, this Court's silent
concealment of 151 pages of Appendix from this Petition and the history
of recurrence systematically of identical acts on the Petitions 17-613,
18-344, 18-569 and 18-800, the adverse influence is presumed that
these Justices' relationship with James McManis and his judiciary
10

conspirators, including the hackers that had shown been working
closely with the three levels of involved California courts, have caused
the repeated alteration of the court's records in violation of 18 U.S.C.
§371, §1001, §1519, and §2071.
In addition, the questions certiorari conflicts with the Justices'
financial interest and personal interest that requires these Justices to
recuse themselves. See discussions below.

I.

ADVERSE INFERENCE PRESUMPTIONS BASED ON
ALTERATION OF THE COURT'S RECORDS UNDER THE
DOCTRINE OF SPOLIATION OF EVIDENCE—
CONCEALMENT OF 151 PAGES FROM THE APPENDIX OF
THIS PETITION PROVES EXISTENCE OF THE SOURCE OF
THE CONFLICTS OF INTEREST—FINANCIAL INTEREST
RECEIVED DIRECTLY FROM THE AMERICAN INNS OF
COURT AND INDIRECTLY FROM JAMES MCMANIS WHO
HAS IN FACT MANIPULATED THE ENTIRE
PROCEEDINGS FROM CALIFORNIA COURTS TO THIS
COURT.
A. Adverse inference presumption under the Doctrine of
Spoliation of Evidence

In Welsh v. US(1988, 6th Cir.) 844 F.2d 1239, the court quoted National
Ass'n of Radiation Survivors v. Turnage, 115 F.R.D. 543, at 557
(N.D.Cal. 1987), and held that where one party wrongfully denies
another the evidence necessary to establish a fact in dispute, the court
should draw the strongest allowable inferences in favor of the aggrieved
11

party (The court held that the missing specimen establishes a
rebuttable presumption that the defendant was negligent in failing to
discover the underlying disease process and that the negligence was the
proximate cause of the decedent's demise). The court stated:
"That an adverse presumption may arise from the fact of missing
evidence is a generally accepted principle of law that finds its
roots in the 18th century case of chimney sweeper's boy who found
a jewel ring, took it to a jeweler for appraisal, got back the ring
minus the jewel, and brought an action trover. See Armory v.
Delamirie, 1 Strange 505, 93 Eng.Rep. 664 (1722); see generally
Stier, Revisiting the Missing Witness Inference, 44 Md. L. Rev.
at 142 & n.22.
The vulnerable principle of Armory v. Delamirie remains good
law. In transporting its wisdom to modern cases, the critical
question for the courts has been not whether some kind of
adverse consequences should flow from the fact of destruction of
evidence, but rather how best to integrate the teaching of Armory
into a coherent scheme of 20th century evidentiary principles that
includes inferences, presumptions, and shifting burdens of
production and persuasion. Compare Nation-Wide Check Corp. v.
Forest Hills Distributors, Inc., 692 F.2d 214, 216-20 (1st Cir. 1982)
(adverse inference from document destruction sufficient to shift
burden of tracing proceeds of money order sales) with Stanojev v.
Ebasco Services Inc., 643 F.2d 914, 923-24 & n.7 (2d Cir. 1981)
(adverse inference from nonproduction of personnel records not
sufficient to cure plaintiffs failure to make out prima facie age
discrimination case).
As the Nation-Wide Check court explained, the policy rationales
for this type of adverse inference are both evidentiary and
deterrent. The evidentiary rational springs from the common
sense notion that a party with notice of an item's possible
relevance to litigation who proceeds nonetheless to destroy it is
more likely to have been threatened by the evidence than a party
in the same position who does not destroy it.
12

The fact of destruction satisfies the minimum
requirement of relevance [under Fed.R.Evid. 401]; it
has some tendency, however small, to make the
existence of a fact at issue more probable than it
otherwise would be... Precisely how the document
might have aided the party's adversary, and what
evidentiary shortfalls its destruction may be taken to
redeem, will depend on the particular facts of each
case. 692 F.2d at 218.
The second rational acts to deter parties from pretrial spoliation
of evidence and "serves as a penalty, placing the risk of an
erroneous judgment on the party that wrongfully created the
risk." Id.
Destruction of potentially relevant evidence obviously occurs
along a continuum of fault — ranging from innocence through the
degrees of negligence to intentionality. The resulting penalties
vary correspondingly. Some jurisdictions have created causes of
action against intentional spoliators. See Williams v. California,
34 Cal.3d 18, 664 P.2d 137, 192 Cal.Rptr. 233 (1983); Smith v.
Superior Court, 151 Cal.App.3d 491, 198 Cal.Rptr. 829 (1984);
Bondu v. Gurvich, 473 So.2d 1307 (Fla.Dist.Ct.App. 1984); see
generally Comment, Spoliation: Civil Liability for Destruction of
Evidence, 20 U.Rich.L.Rev. 191 (1986) [emphasis added]
The doctrine places the burden of prejudicial effects upon the culpable
spoliating party rather than the innocent nonspoliating party. See,

Welsh v. US, 1. d.,"Trevino v. Oretega (1988) 969 SW2d 950.
B. 18 USC §1519 endorsed the doctrine of spoliation of evidence

18 USC §1519 provides that
"Whoever knowingly alters, destroys, mutilates, conceals, covers up,
falsified, or makes a false entry in any record, document, or
13

tangible object with the intent to impede, obstruct, or influence the
investigation or proper administration of any matter within the
jurisdiction of any department or agency of the United States or
any case filed under title 11, or n relation to or contemplation of
any such matter of case, shall be fined under this title, imprisoned
not more than 20 years, or both." [emphasis added]
In Yates v. U.S., 135 S.Ct. 1074 (2015), Justice Ginsburg, as concurred
by Chief Justice Roberts, Breyer and Sotomayor, held that 18 USC
§1519 includes spoliation of documentary evidence, such as false
records, false entry of documents.
C. The Clerk's Office has a statutory duty to file and maintain the
records which cannot be curtailed by a court's local rule
The webpage of Judicial Administration at
http://www.uscourts.gov/about-federal-courts/judicial-administration,
posts:
INIDVIDUAL COURTS
Day-to-day responsibility for judicial administration rests
with each individual court. By statute and administrative
practice, each court appoints support staff, supervises
spending, and manages court records.
The chief judge of each court overseas day-to-day court
administration, while important policy decisions are made
by judges of a court working together. The clerk of court is
the executive hired by the judges of the court to carry out
the court's administrative functions. The clerk manages the
court's non-judicial functions according to policies set by the
court and reports directly to the court through the chief
judge. Among a clerk's many functions are:
Maintaining court records and dockets
Sending official court notices and summonses
Providing courtroom support services [emphasis added', see
also, App.20-21 of Petition for Rehearing in 17-613]]
14

The Court's docket has been considered as the court's records. E.g.,
Mullis v. United States Bank Ct., 828 F.2d 1385 n9 (9th Cir. 1987). In
Critchley v. Thaler, 586 F.3d, 318 (5th Cir. 2009) and in Wickware v.
Thaler, 404 Fed. Appx. 856, 862 (5th Cir. 2010), the court held that the
clerk has a ministerial duty to file and that a delay in filing constitutes
a violation of Due Process. The clerk is not allowed to tamper with the
court's records and refuse to record filing. See, e.g., Kane v. Yung Won
Han, 550 F. Supp. 120 at 123 (New York 1982); see also, FRCP Rule
79(a)(1), (d) ; FRAP Rule 45(a)(2); 18 USC §2071. The clerk is required
to maintain the docket and to record the activity that took place. FRAP
Rule 45, FRCP Rule 79; Jackson v. United States, 924 A.ed 1016 (2007)
The Clerk must not refuse to file a paper solely because it is not in
the form prescribed by these rules or by a local rule or practice. F.R.C.P.
Rule 5(d)(4). Rule 79 requires a clerk to maintain the docket and filings
of the court.
Moreover, the case laws have established that the clerk has no
immunity for concealing record. In Lowe v. Letsinger, 772 F.2d 308
(1985, 7th Cir), the court denied the clerk's qualified immunity where
the clerk, with acting separately and in concert with the judge and the
attorney general to conceal the entry of a decision, when the typing the
notice is a non-discretionary and ministerial work.
California Government Code §68150(c) that is on App.No. 5 of the
Appendix of this Petition but was purged by this Court's Clerk's Office,
states the. policy that
15

"The standards or guidelines shall ensure that court records are
created and maintained in a manner that ensures accuracy and
preserves the integrity of the records throughout their
maintenance. They shall also ensure that the records are stored
and preserved in a manner that will protect them against loss
and ensure preservation for the required period of time.
Standards and guidelines for the electronic creation,
maintenance, and preservation for the required period of court
records shall ensure that the public can access and reproduce
records with at least the same amount of convenience as paper
records previously provided." (emphasis added)
California Government Code §68150(d) that is on App.No. 5 of the
Appendix of this Petition states that "No addition, deletions, or changes
shall be made to the content of court records..'(App.No.5 of this Petition;
emphasis added)
Any local rule or guideline that contradicts with the F.R.C.P. or
statute is void.
D. Spoliation of evidence in this Petition created a presumption
that these Justices are disadvantaged by non-concealment of
the evidence, including evidence of their conflicts of interest
and their conspiracy with James McManis, who is the leader of
the hacker, California Sixth District Court of Appeal, Judge
Theodore Zayner, Judge Patricia Lucas, Respondent's counsel
David Sussman, and Santa Clara County Court, and that they
are part of the conspiracy and are active in concealing the
evidence of conspiracies.

There are totally 177 pages of Appendix, yet this Court only posted 26
pages as the Appendix for this Petition (App.31, App.32, App.60-83),
and concealed151 pages (App.1-30, App.33-59, and App.84-177) without
a notice. This Court even removed all of the "Statutes Involved" that is
16

necessary to a Petition for Writ of Certiorari required by the Supreme
Court Rules.
According to the analysis of Welsh v. US, these Justices were
threatened by the evidence presented by the151 pages and so directed
the Clerk's Office to conceal them from being in the courts' records. The
conflicts of interest for these Justices can be clearly seen by what this
Court removed. The following appendixes were removed or concealed
in this Petition from being the court's records:
(1)Appendix 1 (from App. 1 through App.30): statutes, including
those statutes of illegal alteration of court's records, illegal
dismissal, Code of Judicial Conduct, Rule of Professional Conduct
Rule 5-300 that will prove the function of American Inns of Court
being illegal —

According to Welsh, under the doctrine of spoliation of evidence, these
Justices were threatened by exposure of the statutes as they had
solicited Temple Bar Scholarship solicited for their clerks based on their
judicial function, from the American Inns of Court in direct violation of
the Guide to Judiciary Policies, §§620.25, 620.30, 620.35, 620.45,
620.50, 1020.30; in addition, these Justices were threatened by the
exposure of Rule 5-300 of California Rules of Professional Conduct as
Rule 5-300 establishes the illegality of the basic social function of
American Inns of Court: providing ex parte communications platforms
between the judiciary and the attorneys who are the members of the
American Inns of Court, a private club with confidential membership,
private socialized meal settings, private contacts through skits
preparation, private mentorship including ex parte coaching on the
cases of the attorneys who appear in the same court of the mentor
judges.

17

(2) Appendix 4 (from App.33 through App. 52); "Notice of Errata" to
the Petition for Rehearing which was filed on June 25, 2019;
California Sixth District Court promptly denied rehearing on the
same date after receipt of this Notice of Errata.

This is a necessary document for review, yet this Court concealed it
from the record. These Justices are threatened with evidence of the
conspiracy among the hacker, California courts and James McManis,
that is, evidence of the hacker's alteration of the filed court's records at
California Sixth District Court of Appeal to remove the trace of
participation of the Appellate Unit of Santa Clara County Court on this
appeal. The hacker further remove the email of
sccappeals@scscourt.org by altering the Sixth District Court of Appeal's
official emails at the court's site and altered the same at Petitioner's
receiving email of attorneyshao@aol.com by hacking into Petitioner's
email.
This concealment presumes existence of the hacking incidents and
alteration of courts records, which contradict the recent order of
November 18, 2019 issued by the DC Circuit in 19-5014 where the DC
Circuit denied existence of evidence of hacking by stating that
appellant's claims that "Google and Youtube engaged in hacking and
surveillance activities against her at the behest of Chief Justice Roberts
were properly dismissed as patently insubstantial" and dismissed the
appeal without giving Petitioner a day in the Court. Please see--Petition for Rehearing of this Order was filed with the DC Circuit on
December 13, 2019, #1820049.
Such alterations of the Sixth District Court of Appeal's official emails,
and the Petition for Rehearing and Suggestion for En Banc at the Sixth
District Court of Appeal prove existence of the conspiracies of the
hacker, the Appellate Unit of Santa Clara County Court, Sixth District
Court of Appeal and James McManis, as concluded by Attorney Meera
Fox in Paragraph 31 of her declaration (Appendix 121-122).
18

Ms. Fox declared:
"Any reasonable attorney or member of the public who knew
of the sequence of events described above that occurred from
March 12 2016 through March 14, 2016 would believe that
there was a conspiracy to dismiss Ms. Shao's appeals which
involved at least Deputy Clerk of Court R. Delgado on behalf
of Santa Clara County Superior Court, Justice Rushing of the
California Sixth Appellate District Court of Appeal, and the
firm of McManis Faulkner if not their attorneys. There is no
other explanation for why R. Delgado would go in to work on a
Saturday specifically for the sole purpose of creating false
perjured documents to effect the specific relief required by
McManis Faulkner to assert their collateral estoppels defense.
There is no other explanation for why Justice Rushing would
be expecting the falsified notices to arrive first thing that
Monday morning and to explain how he had the appeals
dismissed within 25 minutes of their receipt. There is no
other explanation for why a presiding justice would be wiling
to violate an appellant's due process rights by summarily
dismissing her appeals without anyone filing a motion to
dismiss and providing her any notice, in direct violation of the
rules of court." (App. No.121-122 in the Petition in bookformat
which are concealed at the US Supreme Court's published
records for this Petition.)
Ms. Fox's declaration includes examination of this underlying case
(H040977) and the child custody case (H040395). Both were dismissed
on March 14, 2016, and then both were created a false docket entry of a
"ghost" default notice on February 27, 2017, which could not be found in
either Santa Clara County Court, nor California Sixth District Court.
This Petition is regarding H040977 and Ms. Fox cited as evidence in her
exhibit E as shown in App. No. 136, 140, 141, 142 of the Appendix of
this Petition that were concealed by the Court.
19

Petitioner filed the Notice of Errata because the Attachment 01 and 04
attached to her Petition for Rehearing for the 11040977 proceeding were
altered and her emails received from California Sixth District Court of
Appeal regarding Attachment 01 and 04 were also altered. This
document presented evidence that the hacker who has been hacking
into Petitioner's email was indeed conspired with the Appellate Unit of
California Santa Clara County Court and has the power to enter into
the system of California Sixth District Court of Appeal to alter the
court's records and email notices.
There is no reason for this Court to remove the email of
sccappeals@scscourt.org but for the fact that at least the Chief Justice
Roberts, who is in charge of the operation of the Clerk's Office of this
Court, felt threatened by such exposure, which also suggests that this
Court's alteration of records was a result of these Justices' conspiracies
with California courts to hide the conspiracies as manipulated by James
McManis.
Therefore, this Court's purging the Notice of Errata reasonably
indicates at least the Chief Justice Roberts' active participation of the
conspiracies among the hacker (identified to be Kevin L. Warnock,
Esther Chung, Google, YouTube), California Sixth District Court of
Appeal, Santa Clara County Court and James McManis's law firm,
McManis Faulkner, LLP.
(3)Appendix No. 5: "The Attachment 01 and 04 to the Petition for
Rehearing that were altered by hacker/courts" in App.53-56
See the discussion above in (2). The two pages of Attachment0l and 04
proved existence of the hacker hacking into Petitioner's email, the
hacker's power of altering the California Sixth District Court of
Appeal's emails, and proves that the dismissal action of the Sixth
District Court of Appeal was in conspiracy with the email owner of

20

sccappeals@scscourt.org who appeared to be Appellate Unit of Santa
Clara County Court.
As already concluded by Ms. Meera Fox, James McManis's law firm
unambiguously is the key conspirator. Under the doctrine of spoliation
of evidence, the concealed records threatened these Justices as it
exposed existence of internet hacking, such hacking's being fruits of the
courts' crimes and this Court's participation in this conspiracy.
(4)Appendix No. 6: "The Sixth District Appellate Court's illegal oral
argument waiver notice of May 6, 2019 that was banned by
California Supreme Court about 15 years ago."
See the discussion above in (2). This is a critical evidence for appeal.
Question No. 4 for this Petition asked this Court to issue certiorari
about the issue:
"Does due process require reversal of June 4, 2019's Judgment
as it issued an illegal 10-day-oral argument waiver notice
(App.55) and disallowed oral argument when Petitioner
requested that on the 11th day (App.53)?"
This Courts' removing the critical evidence for appeal was presumed to
have conspired with James McManis, California Sixth District Court of
Appeal and Santa Clara County to cover up the conspiracies of
California Sixth District Court of Appeal to interfere Petitioner's due
process fundamental right to appeal.
This proves that there is at least reasonable public view that the
Petitioner is impossible to have a fair decision by this Court when the
involved Justices were not recused.

21

(5)Appendix 9: Declaration of Meera Fox on Judiciary Conspiracies,
filed with California Sixth District Court of Appeal on 4/27/2017
(App.100-146)
See the discussion above in (2). This Court's concealing Meera Fox's
declaration from the courts' records could have no other explanation but
that these Justices are in conspiracy with the hacker, California Sixth
District Court of Appeal, Santa Clara County Court and James
McManis, McManis Faulkner, LLP.

(6)Appendix 10: "Respondent's counsel David Sussman's admission
of illegal night time ex parte communication on August 4, 2010,
the date WHEN Shao was illegally deprived of child custody by
judge Edward Davila." (App.No. 147-150)
See the discussion above in (2). This court has no reason to remove this
declaration from the court's records but to cover up Judge Edward
Davila's ex parte communication and to assist the California judiciary
as led by James McManis to maintain the child custody deprival of
Petitioner. This Court has knowingly suppressed the illegal ex parte
communication evidence of Judge Edward Davila and denied
Petitioner's Petition 18-569 and further refused to decide the Motion of
Amicus Curiae Mother of Lost Children and Request for Recusal with
the clear intent to assist James McManis to maintain parental deprival
of Petitioner.
This proves the fact that Petitioner cannot have a fair decision on her
Petition for Writ of Certiorari in front of these Justices that were sued
for being bias and prejudice against Petitioner in 1:18-cv-01233 RC at

22

the USDC for the District of Columbia, based on their relationship with
the American Inns of Court and James McManis.
(7)Appendix No. 11: Orders of Judge Edward Davila filed on August
5, 2010, without any hearing, in response to David Sussman's ex
parte communications. (App. No. 151-153)
See discussion in (2) and (6) above. This proves that these Justices at
this Court are to cover up the fruit of the crimes of Judge Edward
Davila in conspiracy with Respondent Wang's counsel David Sussman
in feloniously depriving a lawful custodian parent's child custody. This
indicates that these Justices are impossible to cast an unbiased vote
regarding this Petition and that Petitioner is unable to have a fair
decision in front of these Justices.
(8)Appendix No. 12: Temple Bar Scholars & Reports (American Inns
of Court's website): Financial conflicts of interest of the Justices at
the US Supreme Court for sponsoring gift solicitation of their
clerks at the American Inns of court. (App. 154-166)
See discussion above, this Court's purging this Appendix creates a
presumption that these Justices are threatened by this document and
provides the reason why these Justices would help the California courts
in concealing the evidence of the crimes--- because of their financial
interest that conflicts the position of this Petition that they should be
required to recuse themselves from voting on this Petition.

23

(9)Appendix No. 13 (App.No.164-166): "Temple Bar Scholarship
webpage published by American Inns of Court: Gifts provided to
US Supreme Court Clerks based on their judiciary position;
Temple Bar Scholarship—a gift illegally targeting at the judiciary
position of the Clerks at the US Supreme Court."
See discussion above, pursuant to Welsh, this Court's purging this
Appendix proves these Justice are threatened by this Temple Bar
Scholarship receiving list as it released the names of the Justices that
sponsoring their clerk for this illegal gift in violation of Guide to
Judiciary Policy, and provides the reason why these Justices would help
the California courts in concealing the evidence of the crimes--- their
financial interest that conflicts the position of this Petition.
Under the doctrine of spoliation of evidence, this purging record
creates a legal presumption that that the American Inns of Court's
function is illegal and these Justices were to cover up the illegality.
Therefore, these Justices must be recused from voting on this Petition.

Appendix No. 14 (App.No. 167-168) : "McManis Faulkner's
(10)
News Release Which Shows the close relationship between James
McManis and Chief Justice John G. Roberts; this News Release
was purged from McManis Faulkner's website in late January
2019" (App.167-168)
See all discussions above. Under the doctrine of spoliation of evidence,
according to Welsh, Chief Justice Roberts feels threatened by disclosure
of this document in the Court's records and there is a presumption that
Chief Justice did conceal his conflicts of interest — his relationship with
James McManis through the American Inns of Court but knowingly
24

voted against Petition 17-82, 17-613 and 18-800 where James McManis
is a Respondent, in order to help James McManis and to conceal the
conflicts of interest.
The concealment creates a rebuttal presumption that Chief Justice
John G. Roberts's relationship with James McManis has caused Justice
Roberts to conceal his conflicts of interest and denied all of Petitioner's
Petitions filed in the past since 2011, after McManis was sued by
Petitioner for their malpractice and breach of duty of loyalty, including
Petition No. 11-11119, 14-7244, 14A677, 16A863, 17-82, 17-256, 17-613,
17-613, 18-344, 18-569 and 18-800. .
Appendix No. 15 (App.No. 1169-173): "Selected Portion of the
(11)
deposition transcript of James McManis on July 20, 2015"
There is no more clear about these Justices' presumption of undisclosed
relationship with James McManis. There is no reason for this Court to
conceal or purge this record other than to protect James McManis.
When the Chief Justice John G. Roberts has a statutory responsibility
to maintain the court's Clerk's Office to be in good order, there is clearly
a public view that Chief Justice Roberts who has a presumption of
having relationship with James McManis through the American Inns of
Court is covering up his buddy's unethical violation of Rule 5-300 of
California Rules of Professional Conduct. This may also explain why
this Court removed the entire section of the Statutes involved from the
Appendix even though the Statutes involved is necessary for a Petition
for Writ of Certiorari.

25

Under the doctrine of spoliation of evidence, clearly this court has a
direct conflicts of interest in assisting James McManis to cover up his
attorney-client relationship with Santa Clara County Court, California
Sixth District Court of Appeal and California Supreme Court.

Appendix 16: Selected portion of the deposition transcript of
(12)
the expert witness of McManis Faulkner: Carroll J. Collins, III,
Esq.
This is the evidence showing McManis's own expert Attorney Collin's
admission during deposition about the public view that Santa Clara
County Court is a client of McManis Faulkner LLP. and that there is
attorney-client relationship between Santa Clara County Court and
McManis Faulkner, LLP.
Yet when the firm and its partners, James McManis and Michael Reedy
are sued as defendants for legal malpractice in Shao v. McManis, et al.
(Petition 18-800), Santa Clara County Court persisted on refusing to
change venue and further allowed a secret Prefiling Vexatious Litigant
Order that was not mentioned in the statement of decision nor entered
into docket (only entered into the docket on August 16, 2017, two years
later) to be created in the civil legal malpractice case in order to be used
at the family court to prevent changes of child custody and child
support. Under the doctrine of spoliation of evidence, this Court's
purging or concealing this record causes a presumption that this Court
was covering up the judiciary corruption and egregious due process
violations made by James McManis, the major donor of the American
Inns of Court.
26

Appendix 17: "Michael Reedy was a speaker for the
American Inns of Court" (App.No. 174)
Petitioner made an argument that this News Release indicates the
relationship of these Justices with Michael Reedy, President of William
A. Ingram American Inn of Court of the American Inns of Court with
the Justices at this Court when Petition 17-82 was pending.
. Under the doctrine of spoliation of evidence and Welsh, there is a
presumption that Justices are threatened with the record which truly
connected with James Mcmanis' partner, Michael Reedy and tried to
cover up his relationship with the American Inns of Court and with
these Justices.
Appendix No. 18: "Letter to Judge Patricia Lucas Asking a
Hearing Date for A Motion to Change Place of Trial on Shao v.
McManis et al. 2012-1-cv-220571 of June 22, 2017" (App.175-76)
There is no reason for this Court to conceal this evidence other than
having been in conspiracy with James McManis to conceal Santa Clara
County Court's Presiding Judge Patricia Lucas's illegal refusing to
change venue when there is direct conflicts of interest, which was to
help James McManis to locking in the case to be decided by James
McManis's own client, Santa Clara County Court, regarding the legal
malpractice lawsuit against McManis and to give favor to McManis,
their major donor through the American Inns of Court, such as to
conceal and suppress all judiciary corruptions played by McManis.

27

Appendix No. 19: "SHAO's Application for her return of
(15)
$10,000 undertaking that was ignored by Judge Theodore
Zayner."
There is no reason for this Court to purge this record, other than having
been in conspiracy with Judge Theodore Zayner, who is now a President
Elect of the William A. Ingram American Inn of Court of the American
Inns of Court and in conspiracy with James McManis to harass
Petitioner by robbing away her money. Pursuant to Welsh, under the
doctrine of spoliation of evidence, such purging actually created a
presumption of the above fact.
CONCLUSION
Therefore, adverse inference presumptions as a matter of law are
created from the documents concealed by this Court in this Petition
which presume existence of the facts that these Justices have direct
conflicts of interest in having conspired with James McManis,
California Sixth District Court of Appeal and Santa Clara Countty
court, Judge Edward Davila, Judge Patricia Lucas, the hacker,
American Inns of Court and Respondent's attorney David Sussman to
conceal every evidence disadvantageous to them and have the conflicts
of interest deriving from their financial interest regarding the American
Inns of Court. Therefore, these Justices must be recused as required by
28 U.S.C. §455.

28

II.

THE CONCEALING 151 PAGES OF APPENDIX IN THIS
PETITION WERE INTENTIONAL AS SUCH PURGING
HAVE BEEN SYSTEMATICALLY REPEATED AT LEAST 6
TIMES IN THE PAST IN PETITIONS 18-800, 18-569, 18-344,
17-613, 17-256, AND 17-82

A. "A continuum of fault" of "intentionality"
As mentioned above, the Welsh court held that "Destruction of
potentially relevant evidence obviously occurs along a continuum of
fault — ranging from innocence through the degrees of negligence to
intentionality. The resulting penalties vary correspondingly."
1. Repeated irregularities in 7 Petitions supports the
intentionality of this Court as supervised by Chief Justice
Roberts.
Such intentional purging is actually a crime for each instance; there
have been at least 7 criminal acts of 18 U.S.C. §1519 at this Court in
17-82, 17-256, 17-613, 18-344, 18-569, 18-800 and the present Petition
No. 19-639.
For example, as stated in Page 11 of the Petition for Rehearing in
the case of 17-613:
Petitioner's custody appeal (from Presiding Judge Patricia
Lucas' order) was stalled by such conspiracies for almost 4
years (H040395) and this Petition is to appeal from the
appellate court's denial of the motion to change place of
appeal and trial and reverse Judge Lucas's order. Santa
Clara County Court, as led by Presiding Judge Lucas, has
blocked Petitioner's complete access to the family court
(105FL126882) and civil court (112CV220571) and denied all
motions to change place of trial. Presiding Judge Lucas even
29

removed the family case away from the Case Information of
the court's website (removed it to become "confidential file")
for about 8 months in 2017. (Petition, App.136, ¶31 of Meera
Fox's declaration about "conspiracies")
The same irregularities were shown in this Court since
September 2017, including delay filing, deterring filing,
altering the dockets, creating false notice. On October 25,
2017, on the ensuing morning after this Petition was
docketed, Supervising Clerk Jeff Atkins of this Court directed
the docketing clerk to return the Petition, to alter the
decision date from April 28, 2017 to June 8, 2017 and he said
to the docketing clerk that "The Respondent should be
"McManis Faulkner, LLP" only and not include James
McManis and Michael Reedy." This incident suggests that
James McManis, the leading American attorney of the
American Inns of Court and this Court's admittee, has
influenced Mr. Atkins and disrupted the Clerk's Office's
function in violation of 18 USC §371.
In the same scheme, recently, California Sixth District
Court of Appeal have not docketed two appeals of Petitioner,
one was filed on October 30, 2017 in the family case (See
App.28), and another was filed on January 17, 2018
(112CV220571)
17-256 was to appeal from the Ninth Circuit's short
Memorandum (1 page or so) in the federal case of Shao v.
McManis Faulkner, LLP, James McManis and Michael
Reedy, where the district court judge Honorable Lucy H. Koh
dismissed the complaint based on defendants' 12bmotion and
denied recusal by a footnote of the same dismissal order. The
Ninth Circuit did not discuss the new facts of undisclosed
relationship between USDC Judge Lucy H. Koh's and James
McManis.
On December 21, 2017, 3 days after "submission", Judge J.
Craig Wallace, the inventor of the function of the American
Inns of Court, promptly denied the appeal in 15-16817 on
December 21, 2017 with another extremely short
Memorandum (App.32-37), by way of alleging that new facts
should not be considered, in conflicts with the Ninth Circuit's
30

long lasting rule to allow new facts in Reply stage for 12b
dismissals. E.g., Orion Tire Corp. v. Goodyear Tire & Rubber
Co., Inc., 268 F.3d 1133.
Sarcastically, while Petitioner's 28 USC §455 motion
specify [sic: requested] to transfer appeal to a court without
influence of the American Inns of Court, ...the designer of the
American Inns of Court lead [sic: led] the appellate panel to
deny appeal.
2. Same scheme of irregularities was shown in each court where
James McManis is a defendant
In fact, the same irregularities of purging docket and court files, and
deterrence of filing, typical disruption of the function of the Clerk's
Office, and refusing to decide, have taken place in virtually every court
where James McManis was sued, including
a. At this Court, where the Petition for Rehearing and Requests for
Recusal documented the irregularities:
(1)17-82: deterred filing of the Amicus Curiae motion of Mothers
of Lost Children by delaying processing, creating false notice on
problems of the Amicus Curiae motion, then refusing to file, not
even returned the unfiled copies,
(2)17-256: redacted the names of Respondents James McManis
and Michael Reedy, concealed/removed the Appendix for the
Request for Recusal, this Court filed to decide request for
recusal
(3)17-613—Supervising Clerk Jeff Atkins's instruction to deputy
clerk about removal of the names of James McManis and
Michael Reedy, alteration of the docket multiple times, de-filed
the Amicus Curiae motion, concealed/removed the Appendix for
31

the two Requests for Recusal, and, this Court filed to decide
request for recusal
(4)18-344: returned unfiled the Request for Recusal,
concealed/removed the Appendix for the re-filed Request for
Recusal , this Court filed to decide request for recusal
(5)18-569: The Clerk's Office refused to file the Request for
Recusal received on November 20, 2019. As shown on Page 11
of 18- 344's Petition for Rehearing filed on December 14, 2018,
Petitioner documented:
"This Court's Clerk's Office failed to file Petitioner's
two Requests for Recusal in 18-344 and 18-569 that the
Court's Clerk's Office received on November 20, 2018.
The one for 18-344 was returned to Petitioner but not
that for 18-569—it was not shown on the docket as
being filed nor returned."
It appeared that only after the Court received the Petition for
Rehearing for 18-344 in latter of December 2018, then the Request for
Recusal for 18-569 was entered into docket with removal of all appendix
when there was about a month's delay for entry into the docket. As
with all other Request for Recusal, this one was not decided. The court
further refused to decide the Amicus Curiae motion.
The Appendixes attached to the Petition for Writ of Certiorari,
and Petition for Rehearing were removed.
(6)18-800: altered the docket, removed the names of James
McManis and Michael Reedy, refused to file motion for judicial
notice on the Amicus Curiae motion filed in 18-569 and failed to
enter into the docket about the court's receipt of Amicus Curie,
redacted the Appendix for Request for Recusal, Petition for
32

Writ of Certiorari, and Petition for Rehearing; , this Court filed
to decide request for recusal
California Supreme Court:
The hacker interfered filing re Petition for Review the decision in
18-800. Following the US Supreme Court, California Supreme
Courts' Chief Justice who was once the President of Anthony M.
Kennedy American Inn of Court and closely related to the
McManis Faulkner Law Firm where Michael Reedy is the
President of the William A. Ingram American Inn of Court, also
failed to decide all requests for recusal in 2017 until present.
California Sixth District Court of Appeal:
numerous dismissals without notice nor motions. Delayed 4 years
in preparing records on appeal for the child custody appeal
(H040395; 18-569), blocked the court reporter from filing the
transcript for trial,and created false notices wrongfully accused
Petitioner failed to prepare other reporter's transcript; delayed 3
years for H042531 (18-800) then failed to prepare crucial records
on appeal and then fraudulently dismissed the appeal without
notice. (11040395: 18-569) Creation of false notices (e.g.,
Fraudulent Notices of Noncompliance in 11040395 and 11040977
on a Saturday March 12, 2015 to effect dismissal on march 14,
2016, false dockets (e.g., 2/27/2017 false docket entry in 11040395
and H040977)

33

d. Santa Clara County Court:
(1)refused to file Judge Manoukian's recusal order of December 2,
2015;
(2)failed to disclose the attorney-client relationship with James
McManis;
(3)Judge Theodore Zayner stole the original deposition transcripts of
James McManis and Michael Reedy from the trial court's case file
of Shao v. McManis Faulkner, LLP, et al in July 2016 and lost the
Volume 5 of the court's file as documented in July 2017 by the
Records Unit of Santa Clara County Court;
altered the court dockets for the divorce case and the docket for
Shao v. Mcmanis,
silently created a Prefiling Vexatious Litigant Order and
backdated its "filing" being June 16, 2015, and silently entered
into the docket by a non-clerk on August 16, 2017 when Judge
Patricia Lucas is the Presiding Judge of Santa Clara County
Court,
blocked the public from accessing the docket of the family court
case for many months from February 2017 until about July 2017,
after Petitioner criticized such illegality in the court filing with
California Sixth District Court of Appeal.
(7)Recently Santa Clara County Court silently dismissed the case of
Shao v. McManis in October 2019 when Petitioner was overseas
without even reserving the hearing date at the Law and Motion
department. According to the local rule 8c, McManis's lawyer
Janet Everson should inform Petitioner of the hearing date
34

reserved for the motion; yet, there is no record of reservation of
the hearing and Petitioner was unaware of such hearing being set.
Then Santa Clara County Court and McManis rushed for filing of
dismissal judgment. This is the second time of silent dismissal of
this case at the trial court level. The first time was February 25,
2014 when Petitioner was overseas. Judge Carol Overton, a
member of the William A. Ingram American Inn of Court,
dismissed the case on the court's own motion. There was no
disclosure of Judge Overton's long term social relationship with
Michael Reedy, through the membership at the William A. Ingram
American Inn of Court.
(8)Before the Prefiling Vexatious Litigant Order was created, when
there is a declaration of vexatious litigant order only, the order
was immediately used at the Family Court of Santa Clara County
Court. Judge Joshua Weinstein immediately used that to block
Petitioner from filing a motion, and even de-filed 4 motions on his
own motion without any notice in 2017. Such misusing Prefiling
Vexatious litigant order was expressly prohibited by a case law of

Shalant v. Girardi, 51 Ca1.4th 1164, 1173-74 (2011)._ The then
Presiding Judge Rice Pichon (when Lucas was the Assistant
Presiding Judge) sua sponte issued an order requiring Petitioner
to make application of vexatious litigant with the Presiding Judge
of the entire court and thus blocked Petitioner from filing a
motion. The effect is to ensure permanent parental deprival to
help McManis and Reedy and their law firm to assert lack of
causation of Petitioners' damages from their malpractice. Santa
35

Clara County Court was fully appraised of the law in Shalant, but
knowingly blocked Petitioner's reasonable access to the Court
from May 2017 until present.
The Ninth Circuit
As shown in Petition for Rehearing in 17-256, and discussion
above, the appeal was dismissed by the designer of the American
Inns of Court without ruling on the 28 USC §455 motion either,
when Judge Wallace is closely related to James McManis. All
these court would deny change venue in order to harbor the
judiciary corruptions directed by James McManis.
The U.S.D.C. in the District of Columbia in the case of 1:18-cv01233
There were at least 28 irregularities as shown in ECF#142, with
notably the following clear and convincing evidence of the common
scheme of irregularities:
(1)Docket alteration and forged court's records--- the name of
Chief Justice John G. Roberts was concealed for a month for
the short form of the case name, when the case was delayed by
10 days to be docketed.
June 5, 2018's entry was silently removed and then, after
August 1, 2018, it was put back after the court saw Petitioner's
criticism stated in the motion to change venue. In addition,
fraudulent docket entry of ECF#38, BJ Fadem's motion to
dismiss which was sent directly into the chamber, with a false
backing date of the signature of Judge Rudolph Contreras

36

without docketing the correct name of the motion. After seeing
Petitioner's criticism, another entry of ECF#41 was created
with a forged receipt stamp of the clerk's office that was not in
existence in ECF#38.
(2)The hacker deterred and blocked Petitioner from filing her
Motion to Strike James McManis's motion to dismiss and
Petitioner's supporting Declaration in September 2018. This
proves the hacker was connected not only to California courts
but to the USDC in District of Columbia.
(3)Judge Rudolph Contreras refused to enter default when there
were default pending against the 7 Justices of this Court and
against himself. With such direct conflicts of interest, Judge
Contreras held on the jurisdiction of the court and refused to
change court in order to enter decisions to the favor of himself
and to the Justices of this Court.
(4) Within a day after the proof of service of Summons upon the
hacker Kevin L. Warnock was filed, Judge Contreras dismissed
the entire appeal sua sponte, in order to stall Petitioner's day in
the court.
g. The DC Circuit in 19-5014
(1)The Operation Manager of the DC Circuit silently took
Petitioner's name from the CM/ECF list right before filing of
the dispositive motion by the American Inns of Court, then put
Petitioner back to allow the DC Circuit to issue an Order to
37

Show Cause granting relief of the American Inns of Court
based on lack of Opposition of Petitioner. This is the same style
of fraud committed by California Sixth District Court of Appeal
in dismissing the child custody appeal (H040395; 18-569) and
the vexatious litigant appeal (H042351; 18-800) to fraudulent
disallowed Petitioner to receive notices such as to cause
dismissal.
(2) Granted the American Inns of Court's motion for summary
affirmance even though the motion was made without notie.
(3)Dismissed sua sponte the appeal, just like how Judge Contreras
blocked Petitioner from accessing the court. These Justices'
pending default was concealed from discussion. There were no
analysis but simply conclusions not supported by evidence.
(4) Refusing to decide all issues in the Amended Motion to Change
Venue in #1791001, including the fact that three Justices at
this Court are alumni judges of the DC Circuit. They are Chief
Justice John G. Roberts, Justice Clarence Thomas and Justice
Ruth Bader Ginsburg. The major ground of disqualification of
the DC Circuit includes alteration of court's records by the
hacker who had free access to the DC Circuit, just like how the
hacker had free access to the USDC in District of Columbia and
California courts. The altered court's records include "Temple
Bar Scholars and Reports" in two documents, the Cover of ECF
#41 about Judge Contreras's forged the Clerk's receipt of BJ
Fadem's motion to dismiss which was not shown in the cover of
ECF#38, and purging the docket page of 18-800. The purging
38

of 18-800, where Respondents are McManis Faulkner, LLP,
McManis and Reedy indicate that the hacker worked closely
with McManis Faulkner.
(5)Refusing to decide all issues in the Petition for Rehearing of
July 31, 2019's Order. See 19-5014, #1820049 filed on
December 13, 2019.
The concealment of the clear and convincing evidence of the
California courts' crimes in this Petition 19-639 is presumed to be
made with intentionality
3.

As discussed above in I.D.(2) and (5) of this Request for Recusal,
in this Petition 19-639, on or about November 20, 2019 when the docket
was entered, this Court's Clerk's Office had concealed from the Court's
website the pleading of "Notice of Errata in Attachment 01 and 04 of
the Petition for Rehearing" (see 19-639, App.53-56, the court's email
notice of 5/6/2019 & 5/17/2019) for this underlying appeal H040977,
when this pleading is material to this proceeding.
As stated in the Notice of Errata, in altering Attachment 01 and
04, the hacker missed altering another court's notice, that is the Sixth
Appellate Court's notice of June 4, 2019 as shown in App.44-45 of 19639 where the email of sccappeals@scscourt.org was intact. The altered
Attachment 01 (May 6, 2019's email of the Sixth Appellate Court to
Petitioner) and 04 (May 17, 2019's email of the Sixth Appellate Court to
Petitioner) are in App.53-56, where the email of the Appellate Unit of
Santa Clara County, i.e., sccappeals@scscourt.org, was deleted by the

39

hacker both on the court's side, as well as on the email site of Petitioner
(attorneyshao@aol. corn)
As discussed above, this concealment generates an adverse
inference presumption of existence of the judiciary conspiracies
including this Court and Chief Justice John G. Roberts as the
supervising Justice of the Clerk's Office, to conceal the manipulation of
the Appellate Unit of Santa Clara County Court involved in California
Sixth District Court of Appeal's fraudulent dismissing the appeal of
H040977 and existence of the fact that the hackers are closely
connected to Santa Clara County Court, California Sixth Appellate
Court, James McManis.
4. The fact that this hacker had close relationship with the courts

is corroborated by the recent discovery that the person who
entered into the docket of 2012-1-cv-220571, Shao v. McManis
at Santa Clara County Court the prefiling vexatious litigant
order of June 16, 2015 more than 2 years later was a contractor
to Santa Clara Court and not a clerk.
On November 15, 2019 when the Petitioner went to the Record
Unit and was informed by a clerk that the docket entry of prefiling
vexatious litigant order of June 16, 2015 was entered on August 16,
2017 by a non-clerk contractor of Santa Clara County Court. This
contractor could be the hacker that has clear authority of entering the
database of the courts. In mid December 2019, Petitioner hired a
professional server, County Process Server, trying to get the docket
entry information but was rejected by the Clerk's Office's supervisor for

40

the Record Unit stating that such information was unable to be
released.
5. Respondent Wang appeared to have hired the hacker and

actively participated in burglarizing the home of Petitioner.
The hacker is possibly paid by Appellee Tsan-Kuen Wang as on
September 8, 2019, the Petitioner found a bank receipt left on her table
that does not belong to Petitioner when her residence has been
burglarized numerous times. The Wells Fargo Bank receipt showed the
name of customer being "Wang." See Exh.001.
6. Police report of 2019-65103 was concealed

WANG's bank receipt was included in the police report. A police
report of 2019-65103 was opened by a Hayward policeman on
September 9, 2019 (Exh.002) but immediately closed by Sergent
DeCosta on September 12 2019 (Exh.002) when the policeman was off
duty. After complaining to the City Manager, Sergent DeCosta showed
up on September 13, 2019 (Exh.002, first entry; Exh.009) directing
Petitioner to provide timelines and promised that she would include
that in the report. Nevertheless, the police report simply disappeared
after the timelines were provided as attached on September 13, 2019
(Exh.006-010) and September 16, 2019 (Exh.011-044). Hayward police
stamped the receipt of these evidence (Exh.006 and 011).
The police department refused to provide the Report 2019-65103,
which indicates that these California judiciary conspirators and

41

American Inns of Court that is manipulating all courts throughout the
U.S. are influencing the Hayward police to close investigation on the
receipt.
Then the police department actively altered the CAD
dispatchment event reports data base to show that Petitioner was
paranoid, which are inconsistent with the incidents list certified by the
Police Department on September 13, 2019 where when evidence of
crimes were included, the incident type would mark "Susp Circ" or
"burglary". There are totally 18 police events reports in 2018 and 2019
that contain evidence of crimes. (Exh.002-005)
In 2018 and 2019, there were multiple equipments used by the
burglars discovered and tendered to the police department. (Exh.00610) Yet, as the hacker had installed hot spots and surveillance system,
Petitioner has been unable to be successful in establishing surveillance
as all cameras were instantly destroyed by them who had installed
surveillance inside Petitioner's residence, before Petitioner.
The report of 2019-65103, if provided, will show 4 witnesses to
discovery of the criminal instruments installed by the hackers/burglars
including a new wi-fi dispatching equipment that was different from the
old security system, to send signals from Petitioner's home to outside
that does not belong to Petitioner. See Exh.008 in the column for
September 8, 2019. See also, Exh.016 for a copy of the wi-fi dispatching
equipment installed by the hackers/burglars.
If this Court would not wantonly deny certiorari, the report would
be able to show what Petitioner represented here.

42

If this Court, the highest judiciary of the U.S. continued helping
the judiciary corruptions involved, this clear and convincing criminal
evidence will be suppressed and gross injustice will continue. If that
were the case, as this Petition has not been decided by this Court yet,
there will be another presumption created under the Doctrine of
Spoliation of Evidence that these Justices are in conspiracy with
California judiciaries, the hackers as well as Respondent Tsan-Kuen
Wang in concealing the evidence of the courts' crimes.
The burglars had a history of hacking into Petitioner's
computers and hard disc to delete at least 44,024 files as
testified by an engineer
Senior Engineer Johnathan Lo detected two hotspots at Petitioner's
residence and helped Petitioner in recovering at least 44,024 files
deleted by the hacker. (See 19-5014, #1791001, Pages 50-57; see also,
Exh.038-44) Such evidence of crimes were provided to the DC Circuit
on June 5, 2019 (19-5014. #1791001), yet the DC Circuit still blindly
stated that no evidence was in existence. Thus, this court's same
pattern of removal of files, alteration of dockets appeared to be part of
the common scheme of judiciary conspiracies.
These felons further burglarized Petitioner's car on
December 14, 2019 including trespassing into two computers
and opened the steering wheel of the car
As discussed above, under the doctrine of spoliation of evidence, the
police report threatened the California judiciary Appellees in 19-5014,
43

the hackers including Google, Youtube, Kevin L. Warnock, Esther
Chung, Tsan-Kuen Wang, and American Inns of Court. The
concealment of the police report is therefore presumed to be jointly
influenced by these affected parties.
Without any leash, knowing Petitioner is working on this Recusal, these
felons burglarized into Petitioner's car and hacked into two laptops and
pried open the steering wheel which contains only wires on December
14, 2019. There were already reports of suspected poison incidents done
by these felons, including causing green water and food poisoning.

WHEREFOR, the presumption of judiciary conspiracies with James
McManis, the hackers, Respondent's counsel David Sussman,
Respondent Tsan-Kuen Wang, Judge Patricia Lucas, Judge Theodore
Zayner, Judge Edward Davila, Santa Clara County Court and
California Sixth District Court of Appeal is corroborated by the
repeated systematic violations of this Court in 18-800, 18-569, 18-344,
17-613, 17-256 and 17-82 such that "a continuum of fault" reaches the
level of intentional, not mere negligence.

B. Existence of this Court's knowledge that the Clerk's Office should
maintain the entire records and not to select partial of records to
be published by this Court's Website is proven by the complete
filing in the Petitions for Rehearing in 17-256 filed on November
22, 2017, in 17-613 filed on December 9, 2017, in 18-344 and 18569 filed in 2018.

44

Electronic filing and posting on the Court's website of the filings only
started in November 2017. The Court Clerk knew that they should file
the entire pleading without removing any part of the Appendix, as such
knowledge is shown by their complete filing of the Petition for
Rehearing in 17-256 on November 22, 2017, in 17-613 on December 9,
2017, in 18-344 and 18-569.
The Petition for Rehearing in 18-800 however was removed the
appendix. Petition 18-800 is an appeal from the vexatious litigant
orders, including the mystic Prefiling Vexatious Litigant order where
James McManis is one of the Respondents; as mentioned above, this
order was not entered into the docket of 2012-1:cv-220571
(112cv220571) until August 16, 2017 by a "non-clerk contractor".
C. In contrast, the Clerk's Office's removal of the Appendix for the
Petition for Rehearing 18-800 is apparently caused by
intervention of James McManis pursuant to the adverse inference
presumption under the doctrine of spoliation of evidence
The appendix removed by this Courts' Clerk apparently constitutes a
threat to these Justices and to James McManis. The evidence concealed
in the Petition for Rehearing for 18-800 includes:

45

App.10-11

App.12-54
App.55-62
App.63-64
App.65

James McManis's news showing his
relationship with Chief Justice John G.
Roberts
Bird view of court crimes--- Declaration
of Meera Fox
Temple Bar Scholars & Reports
Present Program of Temple Bar
Scholarship
"American Inns of Court Members
Services"

D. The Request for Recusal of 17-256 was withheld from filing by 4
days and then when eventually filed, Jeff Akins removed ALL
appendix (supporting evidence for recusal) and filed it with a date
of December 8, 2017
Apparently these Justices were threatened by the appendixes to 17-256
as discussed above (where Petitioner asked recusal of only Justice
Kennedy and Justice Ginsburg based on information available at that
time), and then directed the clerk's office to conceal all Appendixes days
later.
The Clerk's Office Supervisor Jeff Atkins withheld from filing of
the Request for Recusal in 17-256 until December 11, 2017 with the
date posted on December 8, 2017, stamped receipt date to be December
8, 2017, one day after the actual receipt date. He refused to post the
mailing date as the date of filing. All evidence supporting recusal was
actively concealed.

46

1. Story of how the Request for Recusal in 17-256 was withheld
from filing and then filed with all appendixes removed
(discussed in pages 13 and 14 of the Request for Recusal in
17-613)
The story was presented in Pages 13 and 14 of the Request for
Recusal filed in 17-613 on December 19, 2017. Petitioner wrote:
"c. Mr. Jeff Atkins refused to post the entire Request for
Recusal in Petition No. 17-256
On November 25, 2017, for the first time, Petitioner learned of
the financial interests of eight Justices and 38 clerks of this
Court regarding all of the Petitions filed by Petitioner, i.e., No.
17-82, 17-256 and 17-613. On November 27, 2017, Petitioner
learned of the proceeding of the Request for Recusal for the
first time. (A.127) On December 6, 2017, Petitioner filed and
served a Request for Recusal in Petition No. 17-256. The
Supreme Court received the Request by 1-day's express mail at
the morning of December 7, 2017. As No. 17-256 is already at
the stage of Petition for Rehearing, this Request of Recusal is
handled by Mr. Atkins. Mr. Atkins did not return any of
Petitioner's phone calls and emails until late afternoon of
December 8, 2017, when he said he was not sure if he would
file the Request for Recusal that day. It was not filed.
Petitioner repeatedly objected to such lack of filing and
eventually in late afternoon of December 11, 2017, Mr. Atkins
filed it and stated that he had filed it on December 8, 2017 but
for unknown reason the court's website did not show this
filing. Only 44 pages out of 213 were posted on the website.
(A.070) Petitioner inquired of Mr. Atkins why all pages were
not on the website. Mr. Atkins alleged that there were too
many pages. Yet, Petitioner, as an officer of the Court in the
State of California, had emailed to him an Adobe searchable
version of the Request for Recusal with condensed file size of
only 10,024K.(A.072) Mr. Atkins admitted that there was no
rule or regulation to allow him not to post the entire pleading.
On December 12, 2017, the U.S. District Court received the
same Request for Recusal and filed the entire pleading.
47

Petitioner sent to Mr. Atkins the copy filed by the US District
Court on December 13, 2017 and asked him to reconsider his
arbitrary decision of not posting all pages of the Request for
Recusal. Thus far, Mr. Atkins refused to take any action to
correct and remained not posting the supporting evidence."
[17-613, Request for Recusal, Pages 13-14; emphasis added]
2. The Appendixes concealed from publication for the Request

for Recusal in 17-256
The List of Appendix at the beginning of the Request for Recusal in 17256, indicated what this Court concealed:

48

LIST OF APPENDIX
No.

Document name

pages

1

Temple Bar Scholarship recipients A.001-3
and sponsoring Justices of this Court

2

English & Irish Inns' Visits of the A.005-6
American Inns of Court—Respondent
James McManis is active on this
program which includes Temple Bar
Scholarship

3

A.007-8
James McManis is an Honorary
Bencher from the King's Inn in 2012, as
the third American Honorary Bencher,
the same honor as Chief Justice John
Roberts

4

Admission of Respondent James
McManis about his provision of free
legal services to personal affairs of
unidentified judges/justices and his
representation of Santa Clara County
Court in person

5

Declaration of Meera Fox, Esq., as A.02356
an expert regarding judiciary
conspiracy and corruptions played by
Respondent McManis Faulkner law
firm, including their attempts to
dismiss the custody appeal (stalled for

49

A.00921

more than 3 years), to keept the case
inside their kingdom of power, Santa
Clara County Superior Court, to stall
jury trial, and recent irregularities of
2017 in felonious alteration of dockets,
creation of false records of the court
and deterring filing
William A. Ingram American
Inn of Court's 2016-17 Executive
Committee roster

A.0047

William A. Ingram American
Inn of Court 2016-17 Executive
Committee Meetings

A.0049

William A. Ingram American
Inn of Court 2016-17 Schedule of Inn
Meetings

A.0050

Notice of Designation of Court
Reporter's Transcript and Clerk's
Transcript for Appeal from 3/14/2014's
Order, received by California Sixth
Appellate Court on October 7, 2014

A.0051

Court Reporter's Transcripts
Deposited with the Court Pursuant to
Rule 8.130(b)(3)

A.0052

Email notification of dismissal A.0053
of custody appeal on March 14, 2016 at
9:25 a.m. (Monday)
A.0054
Notice of Appellant's
Noncompliance filed on March 12, 2016
(Saturday)
Order to dismiss the custody
appeal of March 14, 2016

A.0055

dismiss the appeal by false notices)
6

7

A. The Ninth Circuit's News
Release of September 19, 2016:

A05760

Judge Wallace in the Ninth
Circuit is a founder of the
American Inns of Court
The American Inns of Court
used the site of the US Supreme
Court for its November 5, 2016's
conference
Justice Alito who received 2
Temple Bar Scholarship awards
for his clerks in 2017 held such a
conference in 2016.
B. Pages 2&3: The American Inns
of Court used the site of the US
Supreme Court on October 21,
2017
A.061Homepage of the website of the
Anthony M. Kennedy American Inn of 62
Court in Sacramento, California, as an
affiliate to the American Inns of Court

8

A.063Justice Kennedy received an
award from the American Inns of Court 64
which is presumably sponsored by
leading attorney Respondent James
McManis

9

The Ninth Circuit established
Kennedy Learning Center
,
The Ruth Bader Jinsburg
American Inn of Court

10

A.06566
A.06768

A.06768

10

The Ruth Bader Jinsburg
American Inn of Court

11

Justice Kennedy has a history of A.06971
denial of two Applications with super
speed on the ensuing date of docketing,
without waiting for the Opposition, nor
disclosing the conflicts of interest

12

The last membership disclosure of A.073the American Inns of Court was in 2008 75
(selected pages)

13

Recent Irregularities of this
Court's Clerk's Office

A.07785

A.078
First Page: Mr. Jordan Bickell
acted beyond his authority in deterring
filing of the Amicus Curiae Motion in
Petition No. 17-82 in September 2017
Second and third pages: excerpts
from Petition for Rehearing of 17-82
describing how Mr. Bickell deterred
filing

A.07980

A.081Supplemental Appendix to
Petition for Writ of Certiorari in 17-613 85
about alteration of dockets and unusual
watching filing
52

14

Selected pages of "Second
Supplement to Motion for Judicial
Notice" filed with the Ninth Circuit in
support of Petition for Rehearing and
Suggestion for En Banc: Evidence of
the conflicts of interest of Judge Lucy
Koh

A.087152

Evidence of the conflicts of
interest of the Ninth Circuit
[the evidence of conflicts of
interest was suppressed by the Ninth
Circuit]
Exh.J: Selected pages of
Deposition of James McManis

A.109112

Exh. K: Declaration of David
Sussman—admission of his calling the
Court at the night of August 4, 2010
(parental deprival)

A.113115

Exh. M: The roster for Executive
Committee in 2011: Judge Lucy Koh
and Respondent Michael Reedy were
both members of the Executive
Committee of the William A. Ingram
American Inn of Court.

A.116118

53

A.119Exh. N: Relevant pages of
Respondent Michael Reedy's deposition 129
transcript
Exh. cc: Judge Lucy Koh's
Questionnaire for Judicial Nominees

A.131139

A.140Exh. dd: Judge Lucy Koh was a
142
speaker for the 2015's Symposium of
the William A. Ingram American Inn of
Court; Justice Kennedy was in 2004;
Respondent James McManis was in
2003
A.143Exh. hh: selected page of the
146
William A. Ingram American Inn of
Court's Member's Handbook in 2016-17
15

A.147Petitioner SHAO could not have
150
made this Request earlier as she was
unaware of the Request for Recusal
proceeding until Nov. 27, 2017; in
addition, Petitioner was unaware of the
Court's financial interests of Temple
Bar Scholarship until Nov. 25, 2017

16

Continuous prejudice where the
State Court willfully ignored the direct
conflicts of interest up to present that
requires this Court to issue Certiorari:
Order of Judge Kirwan of
December 4, 2017 in favor of
Respondents where Judge Kirwan
refused to recuse himself when he is
the President of the William A. Ingram
A ...... —4._ T-- -4' fl,,..-4- -,,,,1 D..,...-1.---+

A.151171

Respondents where Judge Kirwan
refused to recuse himself when he is
the President of the William A. Ingram
American Inn of Court and Respondent
Michael Reedy is the President-Elect
(A.047) and Respondent is the attorney
of Santa Clara County Court; the
Court disallowed Petitioner to file
a motion to change place of trial
without a formal motion to lift the
stay when the stay was without
any basis and was made
impromptu by the Respondents in
order to take time to dismiss the
custody appeal.
Presiding Judge Patricia Lucas'
letter of March 8, 2017 ignoring the
issue of repeated false notices as well as
alteration of docket of the family court
case and inviting Petitioner to make a
complaint against her.
Judge Folan waited 3 weeks
then issue an Order of November 21,
2017 with a false excuse that because
the trial judge stayed all motions then
the motion to change place of trial must
be stayed, in contravention with Rule
3.543 of California Rules of Court.
(A.157-58)

55

E. Continual purging evidence—removing all appendix for the
Request for Recusal of 17-613
1.a. Altering the decision date from April 28, 2017 to June 8,
2017 then altered again to April 28, 2017
From the beginning, on the ensuing morning after the docketing clerk
created a docket, on 10/25/2017, Jeff Atkins suddenly walked to the
deputy clerk demanding de-filing based on his statement to the clerk
that the date of decision should be "June 8, 2017" not "April 28, 2017".
(See above; Pages 2-3 in "Supplemental Appendix to Petition for Writ of
Certiorari." Filed on October 26, 2017 in 17-613.) As stated in Page 11
of Petition for Rehearing in 17-613, "This incident suggests that James
McManis, the leading American attorney of the American Inns of Court
and this Court's admittee, has directly contacted and influenced Mr.
Atkins to let him know the date of "June 8, 2017" and disrupted the
Clerk's Office's function in violation of 18 U.S.C. §371.
This Court only altered the "June 8, 2017" back to "April 28, 2017"
on November 27, 2017, more than a month after its docketing. See, P.
38 of Renewed Request for Recusal filed in 17-613 on or about February
1, 2018.
The story was presented to this Court in Supplemental Appendix,
for 17-613 as below:
"II. THE DISPOSITION DATE IS NOT JUNE 8, 2017
On October 25, 2017, Supervising Clerk Jeff Atkin directed a
change to the docket of Petition No. 17-613 by replacing the
disposition date of April 28, 2017 with June 8, 2017. This
change is incorrect.
56

Petitioner's Motion to Strike the default notice of March 14,
2017 and her renewed motion to change place of appeal and
trial and remand, was electronically filed with the California
Sixth Appellate Court on March 29, 2017. Formal filing of this
motion was delayed and it was "withheld from filing" by
Presiding Justice Conrad Rushing until April, 28, 2017, (App.
217: Snapshot of Truefihing.com), the same date when JustiCe
Rushing denied the motion. (App.13, App.203; see also the
docket in App.211-216) The Petition for Review filed with
California Supreme Court was signed by Petitioner on June 7,
2017. (App.202)
The California Supreme Court posted the filing date as June
12, 2017 on its docket. It denied Review on July 19, 2017. It
granted the Motion for Judicial Notice (App.219-350),
including, but not limited to, relevant pages of deposition
transcript of James McManis (App.290-292), McManis
Faulkner LLP's website showing Santa Clara County Superior
Court being one of its clients (App.285-287) and Presiding
Judge Patricia Lucas's letter of 3/8/2017 (App-272).
This Petition involves multiple efforts of the state courts to
conspire to dismiss this appeal that has been stalled for 3
year's, with repeated false notices of default. The first such
notice was on March 12, 2016, irregularly issued on Saturday,
in which Justice Rushing dismissed the appeal by order of
March 14, 2016. This occurred within 25 minutes of the
Appellate Court's opening and without a notice of his intended
action. This dismissal was later vacated and the appeal
reactivated.
About one year later, on February 27, 2017, a false docket entry
of default was made without any paper. Another false Default
Notice of March 14, 2017 was also put on the docket. This latter
notice is the subject of this Petition. After March 14, 2017
entry, there is another false notice of April 25, 2017. This notice
was incorporated in the Order of June 8, 2017, but that Order
of June 8, 2017 is still pending a motion to reconsider (the entry
57

in the docket erroneously mentioned the March 14, 2017
Notice, when the pending motion to reconsider concerned the
April 25, 2015 Notice of Non-compliance.) Therefore, the
disposition date for this Petition is not June 8, 2017 but April
28, 2017."
[17-256, Petition for Rehearing, App.40-41, Emphasis added]
Jeff Atkins's instruction of removal of the names of James
McManis and Michael Reedy as Respondents in 17-613 indicates
this Court's conflicts of interest with James McManis and Michael
Reedy that requires recusal, or at least investigation.
In addition to altering the date of decision, on the morning of October
25, 2017, Jeff Atkins further directed the docketing clerk never put the
names of James McManis and Michael Reedy but only McManis
Faulkner, LLP. It is clearly someone is manipulating this court's
proceeding that Petitioner cannot have an impartial decisions. See P.37
of Renewed Request for Recusal filed in 17-613 on or about February 1,
2018.
Jeff Atkins removed all appendixes for both the Request for
Recusal filed during the Petition for Writ for Certiorari
proceeding and the Renewed Request for Recusal filed during the
Petition for Rehearing proceeding.
An overview of the contents of the Appendixes that these Justices felt
threatened, according to the doctrine of spoliation of evidence, are all
about Temple Bar Scholarship--- substantial value of gifts and financial
interests received from American Inns of Court and their relationship
with the American Inns of Court as well as with James McManis and
Michael Reedy. The following Appendixes were removed from the
Renewed Request for Recusal filed in 17-613:

58

1

Temple Bar Scholarship recipients and
sponsoring Justices of this Court

2

The Temple Bar Foundation was assumed ,A.005by the American Inns of Court in 1996; the 10
direct benefit received by the clerks who
have power to make recommendations to
the Court and indirect benefit to the
sponsoring Eight Justices require recusal.
Snapshots of new video released on the
homepage of the website of the American
Inns of Court. After the Request for Recusal
was filed, the video was removed from
the website.
The American Inns of Court's function is in A
contravention with Rule 5-300 of California
Rules of Professional Conduct and Canon
4(c) of Code of Judicial Conduct for US
Judges: "American Inns of Court Member
Services" video---

3

"This is the only organization that I know
that the lawyers and judges belong to the
trial bar have a chance to meet outside of
the courtroom in a social setting and really
able to establish the rapport," said Manuel
Sanchez.
Attorney Sanchez's video was removed
completely from the internet.
Estimated removal time to be in late
January 2018. (Petitioner has a copy of
the video; any one interested may
request for a copy.)

'A.0014

4

The reciprocal international relationship
A.017
influenced the American Inns of Court to an -18
extent to give award for a special project to
acknowledge that the Declaration of
Independence of the USA is "illegal."

5

Reciprocity agreement of the American Inns A.019
-020
of Court and the Inns of Court of England
and Ireland where James McManis is an
active contributor. This international travel
program is a major function/expenditure of
the American Inns of Court

6

James McManis is undoubtedly the "leading A.021
attorney" for the international program as
he is the 3rd leading American obtaining
the highest honor of an Honorary Bencher
in 2012, after Chief Justice John Roberts
This page was removed from McManis
Faulkner's website after filing the
Request for Recusal. This page can be
found at shaochronology.blogspot.com

7

Admission of James McManis on July 20,
2015 about his provision of "pro bono"legal
services to unidentified judges/justices
clients regarding their personal affairs.
Who are these unidentified judges/justices
clients?
The deposition transcript of James
McManis was taken judicial of by California
Supreme Court in its Order of July 19, 2017
(App.14 of this Petition/Supplemental

A.023
-36

8

THE EIGHT JUSTICES HAVE
A.037
ALLOWED AMERICAN INNS OF COURT -40
TO OPERATE ITS BUSINESS ON THE
SITE OF THE US SUPREME COURT
News release of the Ninth Circuit
on 9/19/2016
The American Inns of Court used
the Supreme Court's site for its Conference
on October 21, 2017. Justice Kegan held
the conference. Her clerk obtained Temple
Bar Scholarship from the American Inns of
Court in 2017.
Justice Anthony M. Kennedy's direct A.041
-42
conflicts of interest in this Petition where
the function of American Inns of Court is at
Issue.

EVIDENCE OF JUSTICE ANTHONYY M. A.043
10 KENNEDY'S CONFLICTS OF INTEREST-- -50
- RECEIVED GIFT/AWARD FROM THE
AMERICAN INNS OF COURT WHERE
JAMES MCMANIS'S LAW FIRM IS A
MAJOR SPONSORING ATTORNEY
Members' Handbook showing the function

being "social"
EVIDENCE OF ACTUAL PREJUDICE TO A.051
-53
11 PETITIONER--JUSTICE KENNEDY'S
SUPER SPEEDY DENIAL OF TWO
APPLICATIONS IS LIKELY RESULTED
FROM THE CONFLICTS OF INTEREST
Justice Kennedy has a history of denial of
two applications of Petitioner with super
speed-- both on the ensuing day of
"docketing" (filing date plus mailing time)
when he was the sole decision-maker.

12

13

14

15

A.055The last membership disclosure by an
57
American Inn of Court--was in 2008
(selected pages). After 2008, the
members are secret, whether judges or
attorneys, except the
officers' names.
The Ruth Bader Jinsburg American Inn of A.05859
Court
A.061EVIDENCE OF ACTUAL PREJUDICE
FROM THE CONFLICTS OF INTEREST-- 76
Recent irregularities in this Court's Clerk's
Office
A.077EVIDENCE OF RISK OF FURTHER
110
INJUSTICE THAT MAY CAUSE IF THE
COURT DID NOTGGRANT CERTIORARI
Declaration of Meera Fox, Esq.
A.102
A: William A. Ingram American Inn of
Court's 2016-17 Executive Committee roster

Declaration of Meera Fox, Esq.
A.102
A: William A. Ingram American Inn of
Court's 2016-17 Executive Committee roster

63

B: William A. Ingram American Inn of
Court 2016-17 Executive Committee
Meetings

A.103

C: William A. Ingram American Inn of
Court 2016-17 Schedule of Inn Meetings

A.104

D. Notice of Designation of Court Reporter's A.105
Transcript and Clerk's Transcript for
Appeal from 3/14/2014's Order, received by
California Sixth Appellate Court on October
7, 2014
E. Court Reporter's Transcripts Deposited A.106
with the Court Pursuant to Rule 8.130(13)(3)
F. Email notification of dismissal of custody A.107
appeal on March 14, 2016 at 9:25 a.m.
(Monday)
G. Notice of Appellant's Noncompliance filedA.108
on March 12, 2016 (Saturday)

16

H. Order to dismiss the custody appeal of
March 14, 2016

A.109

I. Appellant's Default Notice of March 14,
2017 (repeated attempt to dismiss the
appeal by false notices)

A.110

Gross injustice will result if certiorari for A111were not issued. The Ninth Circuit has used 124
its less than 2 pages' Memorandum to
suppress the evidence of Judge Lucy Koh's
conflicts of interest with McManis Faulkner

Gross injustice will result if certiorari for
A111were not issued. The Ninth Circuit has used 124
its less than 2 pages' Memorandum to
suppress the evidence of Judge Lucy Koh's
conflicts of interest with McManis Faulkner
law firm.

65

--List of Executive Committee of the
William A. Ingram American Inn of Court
in 2012
--Selected deposition transcripts of Michael
Reedy
A. 135: Petitioner was unaware of the
A.12517 available proceeding of Request for Recusal 129
at this Court until November 27, 2017
A. 136-138: Another Attorney who
Petitioner
never met informed Petitioner of the direct
conflicts of interests of Eight Justices and
38 Clerks at this Court on November 25,
2017
1. The Sixth Appellate Court's Order of
A.130132
18 April 28, 2017, the subject of this Petition
2. A. 129: California Supreme Court granted
the motion for judicial notice in support of
the Petition for Review without any
reservation
Evidence of risk of gross injustice will result A.13319 if certiorari were not issued---The docket 140
of H040395
A.141Evidence of risk of gross injustice if
190
20 certiorari were not issued to grant these
Petitions,17-256, 17-613 and 17-82
evidence of exposure of McManis Faulkner's A.153
attorney's ex parte communication with the
trial judge ---Judge Derek Woodhouse.
Presiding Judge Patricia Lucas refused to A.159
correct the docket removal of 105FL126882,
the repeated false Notices, and invited Shao
to make a complaint.

correct the docket removal of 105E1.4126882,
the repeated false Notices, and invited Shao
to make a complaint.

67

Judge Theodore Zayner took the court files A.160and lost Volume 5-- proving his relationship 67
with this civil case in denying custody
return to SHAO.
McManis Faulkner's own expert admitted toA.168177
the public view that MF is appearing in
front of its own client.
A.181Judge Folan's Order retracting from her
82
tentative decision (A.179)

21

A.189Judge Woodhouse's written order to stay
90
jury trial over the objections of SHAO on
3/11/2016
Declaration of Michael Bruzzone—Evidence A.189190
of loss of public confidence

ABA's News Release: Paragraph 3 shows
22 that Chief Justice John Roberts is an
Honorary Bencher of the Middle Temple,
who is directly involved in the Temple Bar
Scholarship Program
_
News release of 4/27/2012 published by
23 McManis Faulkner—Michael Reedy was a
key speaker of the American Inns of Court
in 2012.
News release of 10/21/2017 published by
—"The
Court
24 McManis FaulknerSupreme
Hosts The American Inns of Court
Celebration of Excellence": It was hosted by
Justice Kegan and Michael Reedy was
invited
Irregularity of the Clerk's Office in de-filing
25 the Amicus Curiae Motion and altering the
docket entry: The docket of 17-613 before
and after the "de-filing'' and emails with

19192

193194

195196

197203

Irregularity of the Clerk's Office in de-filing 19725 the Amicus Curiae Motion and altering the 203
docket entry: The docket of 17-613 before
and after the "de-filing" and emails with
Donald Baker which caused the correction
26

27

28

Irregularities continue—an email showing
an appeal that was filed on October 30,
2017 has not been docketed by the appellate
court for 3 months.
Supervising Clerk Jeff Atkins persisted on
not posting the Appendix attached to
Requests for Recusal—which apparently
was instructed by James McManis and/or
American Inns of Court as they purged the
evidence
Jeff Atkins disallowed filing of a motion to
vacate the January 8, 2018's order in 17-256
and will return filing if Petitioner presented
it to the Clerk's Office

204205

206214

215218

3. This Courts' Clerk's Office's de-filing of the Amicus Curiae
Mothers for Lost Children's motion in 17-613 on December 9,
2017, corroborated the illegal operation of this Clerk's Office and
supports existence of the "intentionality" as well as existence of
the conflicts of interest derived from the Justices' relationship
with James McManis and Michael Reedy

69

40 sets of amicus curiae motion for 17-613 that were mailed on
November 17, 2017 were received by the Court on November 20, 2017
but were delayed filing by Mr. Donald Baker until 12/9/2017.
Ten days later, on 12/19/2017, upon receipt of Petitioner's Request
for Recusal, the docket entry of 12/9/2017 was altered from "filing" the
amicus curiae motion to "not accept for filing". Someone apparently
directed Donald Baker to "de-file" the motion.
On December 19, 2017, Petitioner emailed to Mr. Donald Baker
the case law that his conduct is not covered by any immunity and
constituted a crime. Mr. Baker then put the amicus curiae motion back
to this Court's on-line docket of 17-613, after requiring Mr. Katzenbach
to re-e-file the motion. Then Mr. Baker put down on the docket of 17613 a corrected filing date of the motion as 11/17/2017. (See App.195
and Page 40 for the Renewed Request for Recusal filed in 17-613.)
F. Intentional deterrence of filing of the motion of the Amicus Curiae
Mothers of Lost Children in 17-82 supports the intentionality of
this Court's spoliation of evidence.
As presented in the Petition for Rehearing in 17-82 in Pages 4 and 5,
someone was able to influence the Court to make whirlwind change of
personnel to use a clerk called Donald Baker to replace one of the clerks
who had handled Amicus Curiae for many years. Before September 20,
2017, there were two clerks for Amicus Curiae for years, Ms. Cathy Taiz
and Ms. Denise McMerny. Yet, the Amicus Curiae motion filed by
Mothers of Lost Children were not handled by either of them.
On September 6, 2017, Supreme Court's Clerk's Office received
motion of Amicus Curiae of Mothers of Lost Children for 17-82, and 1770

256. At that time 17-82 was set for conference 19 days later on
September 25, 2017. Another Clerk's Supervisor Danny Jordan who
had not handled pre-certiorari proceeding brought a Donald Baker to
interfere with the Petitioner's case of 17-82 (regarding the court's denial
of modification of child custody). Jordan and Baker delayed processing
until 8 days later for the purpose to stall filing the motion in the child
custody case of 17-82. As testified by Meera Fox, Esq., the most
important task of McManis,was to ensure parental deprival in order to
assert his defense of lack of causation.
Baker sent a rejection letter on September 14, 2017, 8 days after
receipt, and returned all to the Amicus Curiae counsel, Mr. Katzenbach,
who received the returned copies on September 18, 20117. Baker and
Jordan picked on the fault of the 10 pages of motion, to require a Table
of Contents to be added and require adding the wording of "for leave" on
the cover. Mr. Katzenbach did not anticipate the returns as there were
full discussion with Ms. Taiz before submission for filing and Ms. Taiz
did not state any of these requirements when she was made known to
have 10 pages. Within a day, expeditious reprinting was done and remailed on September 19, 2019. Yet, Baker and Jordan knowingly
blocked filing on 17-82 to let the conference denied the Petition without
the benefit of the Amicus Curiae motion.
When being challenged on why there was no filing of the Amicus
Curiae motion in 17-82 and there was neither any return of the Amicus
Curiae motion, Baker just transferred the call to Jordan who falsely
criticized that being "many" problems. Such falsity is proven by the fact
that the same motion was granted in 17-256.
71

After receiving Petitioner's criticism for acting beyond jurisdiction,
Jordan caused McMerny to be replaced by Baker on or about September
20, 2017.
When Mr. Katzenbach re-filed the Amicus Curiae motion, in his
letter of September 19, 2017, he wrote:
"Based on conversations with the Clerk's Office, we had the
understanding that our initial filing was in an appropriate
format.
It is our understanding that the Petition in Case No. 17-82 is
set for conference on September 25, 2017. It is our hope that
the motion could be submitted prior to the conference."
The intention to block Amicus Curiae motion's being filed in the
child custody case of 17-82 was obvious as Mr. Jeff Atkins had the
authority to continue the Conference Date but he knowingly declined
(App.17 in Petition for Rehearing of 17-82), knowing the delay of Baker
and Jordan's unlawful returns of the motion was for the sole purpose of
blocking the Amicus Curiae motion of Mothers of Lost Children from
being entered into consideration in 17-82.
G. These Justices knowingly failed to decide on the Amicus Curiae
motion of Mothers of Lost Children in 18-569, the child custody
appeal case, as well as each and every Requests for Recusal filed
in 17-256, 17-613, 18-344, 18-569 and 18-800, in addition to its
refusing to file in 18-344 and holding on filing in 17-256 by a
month, corroborated the intentionality of this Court in spoliation
of evidence and constitutes ground of disqualification

72

In State v. Allen, 2010 WI 10 at Page 35 (2010), Wisconsin Supreme
Court researched the history of the US Supreme Court's ruling on
disqualification motion and stated:
"An examination of recusal practice at the United States
Supreme Court reveals that even while the Court has, as a
matter of tradition or general practice, left recusal decisions to
individual justices, the Court appears always to have retained
jurisdiction over recusal motions and maintained the authority
to guarantee a fully qualified panel of justice. At least once, the
members of the Court have, by majority vote, curtailed another
sitting justice (Justice William 0. Douglas) from participation in
the court's decision."
According to Wisconsin Supreme Court's research about this Court's
practice on recusal requests, the decision of recusal has been left to the
handsof the Justice that is asked to be recused.
Justice Rehnquist issued a lengthy opinion in Laird v. Tatum, 409 U.S.
824 (1972) regarding a request for recusal of himself. Other requests for
recusal were denied without stating a reason, but every recusal was
decided, except those filed by Petitioner. E.g., Earnest v. U.S. Attorney
for the S. Dist. Of Alabama, 474 U.S. 1016 (1985) (J. Powell).
No justice ever refused to decide on recusal except in Petitioner's
Requests for Recusal. These Justices named in this Request have
created the history of lack of decision on the Requests for Recusal in the
Petitions filed by Petitioner. Such discriminative practice constitutes a
violation of the First Amendment of the Constitution.
Moreover, for this first time in 226 years' history, this Court failed to
decide the Amicus Curiae Motion of Mothers of Lost Children in 18-569
73

on 1/7/2019 when Amicus Curiae motion is well-recognized to be
material to this Court's decision on whether to grant certiorari.
Petition 18-569 is regarding the child custody appeal from Santa
Clara County Court's Presiding Judge Patricia Lucas's order of
November 4, 2013, the very order that James McManis set as the first
priority to cause the order to become final judgment in order to apply
collateral estoppels in the malpractice case, as testified by Attorney
Meera Fox. (19-639 Petition, App.102)
This Court knowingly failed to decide on the Amicus Curiae
motion when the child custody is directly at issue.
A refusal to rule on matters is a serious violation of judicial duty.
Inquiry Concerning Freedman (Cal.Comm. Jud. Perf. 2007) 49 Ca1.4th
CJP Supp. 223 (censure for judge not promptly ruling in cases);
mardikian v. Commission on Judicial Performance (1985) 40 Ca1.3d
473, 477. The court has a duty to decide recusal (O'Hair v. Hill, 641
F.2d 307 (5th Cir. 1981) in ft.1, which is "absolute" (Corner v. Murphy
Oil USA, 607 F.2d 1049, 1057 (5th Cir. 2010)) and is Constitutionally
imposed (National Education Assoc. v. Lee County Board of Public
Instruction, 467 F.2d 477 (5th Cir. 1972)) The determination of the
issues presented by the Request for Recusal is necessary prior to any
substantive ruling on the merits of the Petition as required by 28
USC§455. Caperton v. A. T. Massey Coal Company, 556 US 868
(2009).Such systematic obstruction of the Court's function in
maintaining regular function of the Clerk's Office and in maintaining
the fundamental duty to rule, has constituted a conspiracy to
74

impair,obstruct or defeat the lawful function of the highest judicial
department of the government of the U.S. that constitutes violations of
18 U.S.C. §371. See, Tanner v. United States, 483 U.S. 107 at P.128
where this Court held that:
"the fraud covered by the statute "reaches 'any conspiracy for
the purpose of impairing, obstructing or defeating the lawful
function of any department of Government."
H. Continuance of the fault in that all appendixes of the Request for
Recusal in Petitions 17-256, 17-613, 18-344, 18-569, 18-800 were
removed.
All appendixes to the Requests for Recusal in 17-256, 17-613, 18-344,
18-569, 18-800 were concealed. Such concealment apparently was
willful as there were twice that the Clerk's Office refused to file or enter
into the docket the Requests for Recusal., as well noted by Petitioner in
the Supplemental Appendix filed with this Court in 17-613 on October
30, 2019 All appendixes these Justices felt threatened in 19-639
Petition for Writ of Certiiorari were concealed, as discussed above.
In Petition 18-800, just like this Petition (19-639), this Court also
silently purged the Appendix to the Petition for Writ of Certiorari from
202 pages to retain only 35 pages. The necessary portions for a Petition
for Writ of Certiorari including Involved Statues, and selected orders
that were clear products of judicial corruptions were also concealed,
such as in (1), (3), (9), (10), (11) and (12). The following records were all
purged and the files identical to the purged files in this Petition are
heighted with bold and underlines:
75

(1)Involved Statutes from App. No. 1-19, where Petitioner cited
California Penal Code Sections 115, 132, 134, 470, 182, 278.5 and
96.5 for the conspired court crimes committed by California courts
when James McManis is or was the attorney of Santa Clara
County Court and the court repeatedly refused to transfer the case
out in order to hide the judicial corruption of Judge Edward
Davila, Judge Theodore Zayner and Judge Patricia Lucas
(Assistant Presiding Judge and Presiding Judge from 2012 until
present)
(2)Appendix #2: "CA 6th Court of Appeal's E-notice At 3:34 p.m. of
July 3, 2-18 regarding acceptance of Shao's objection/motion to
strike stay AND motion to augment record to the court's
registered normal email of attorneyshao@aol.com which defrauded
SHAO into believing that the court may take 15 days per Rule
8.54(b)(1) tp decode pm SJAP's motion without knowing that the
California Sixth District Court of Appeal has secretly issued an
order 13 minutes ago to set July 9, 2018 as the due date to file
Opening Brief knowing that SHAO would definitely missed the
unnoticed due date in order to create a fraudulent excuse to
dismiss this appeal."
(3)Appendix #3: "SECRET Order of July 3, 2018—this appeal should
have never been dismissed as THE COURT HAD
ACKNOLWEDGED THAT SHAO had filed a "Request for Judicial
Notice in Support of Opening Brief'—the reason of waiting
without immediate filing the Opening Brief simultaneously with
Request for Judicial Notice was to follow the instruction of the
76

Deputy Clerk Beth Miller to wait and see the Court's ruling on the
issue of missing material records on appeal."
(4)Appendix #6: The clear and convincing evidence that the Court
switched emails within 13 minutes on July 3, 2018, where it
induced SHAO into believing that the court would issue order 15
days after the notice of acceptance of filing pursuant to Rule
8.54(b)(1) of California Rules of Court by sending the notice of
acceptance of filing to the registered email of SHAO, but conceqled
the important notice on due date for appeal by sending to SHAO's
extinct email 13 minutes before sending the notice of acceptance
(see App.#2 in App.13), SHAO was unaware that when she
received the notice of acceptance of filing, the same had already
been denied 13 mintues prior.
(5)Appendix #7: The clerk did not deny the conspiracy to block SHAO
from knowing the new due date for filing her Opening Brief
(6)Appendix #9: Re 7/30/2018's Order: Notice of "Acceptance of
filing" on motion to vacate dismissal."
(7)Appendix#10; "Re 7/30/2018's Order: In violation of Rule
8.54(b)(1), the Court of Appeal denied the motion to vacate
dismissal within 5 minutes of acceptance for filing.
(8)Appendix#11 Trial court's Order in the morning of June 16, 2015's
ex parte application setting
(9)Appendix#12 Trial court's Order of June 16, 2015 filed at 10:56
a.m. by Judge Folan's Clerk Lorna Delacruz, immediately followed
the short 10 minutes only's hearing (Judge Maureen Folan

77

disallowed additional time for Shao to argue and present evidence,
in violation of due process)
Appendix#12a Proof of Service filed the same time
Appendix#13 Mysterious prefiling order which was
backdated to be filed on June 16, 2015 at 3:03 p.m. when the
envelop showed June 18, 2018 [sic: 2015] and received by Shao on
or about June 24, 2015. The document in #13 provides
circumstantial evidence ethat this order that was not entered the
docket until after July 2017, more than 2 years later was done
about June 24, 2015.
Appendix#13a Backdated proof of service for the prefiling
order that was made at a different time than that shown on the
prefiling order itself.
Appendix#14 Docket sheet of H042531
Order of 10/31/2011, 3+ months after the hearing of
7/22/2011 that ILLEGALLY maintained the vacated orders of
August 4 and 5 of 2011 [sic: 2010] to be valid, after granting
SHAO's motion to set aside these orders. This order is the subject
of California 6th District appeal case of 11037820 and petition No.
14-7244"
Page 43 of Jill sardeson's deposition transcript admitting to
ex parte communications between Respondent's attorney David
Sussman and Judge Edward Davila, that caused the supervised
visitation order and sibling separation order (Addendum to
August 4, 2010's Order) to be filed WITHOUT A HEARING ON
AUGUST 5, 2010
78

Appendix #17. David Sussman's admission of illegal night
time ex parte communication on August 4, 2010, the date Shao
was illegally deprived of child custody.
Appendix#18 Order filed on August 5, 2010, without any
hearing, and the supervised visitation order was signed at the
night of August 4, 2010 in response to David Sussman's voice mail
(see#10 above)—subject of petition for Writ of Certiorari, No.
111119 [sic:11-11119]
Appendix#19 P.10 of August 4, 2010's transcript stated the
child's wishes to be with her mother, SHAO and complained
abuse.
See more of abuse at shaochronology.blogspot.com/2014/01/evidence.
Over the objections of all three attorneys, except David Sussman,
Judge Edward Davila forced separated the 5 year old from her
mother and her brother who stood up to protect her.
Appendix#20 order Staying Civil Trial in 112cv220571 that
was filed on 3/11/2016
Appendix-#21 Shao's Supplemental filed on 7/19/2018
California Supreme Court had granted judicial notice on
7/25/2018: evidence of court's fraud in dismissing this custody
appeal
Supplemental to motion for judicial notice tha was filed on June
19, 2018
Appendix #22 The Court was made known on 3/22/2018 that
Petitioner had to create another e-filing account at the truefiling

79

because she was unable to access her extinct email of
attorneylindashao@gmail.com
Appendix#23 Beth Miller was made known that Petitioner's
inability to access to the original registered email of
attorneylindashao@gmail.com caused a new account to be created
by a new email on 3/27/2018
Appendix#24 Beth Miller also communicated with petitioner
on 4/25/2018 via the registered email of attorneyshao@aol.com
Appendix#25 Truefiling's website account showed the
serving email is attorneyshao@aol.com, not
attorneylindashao@gmail. corn
Appendix#26 Same Scheme of conspiracy on dismissing the
child custody appeal by defrauding Shao that her motion to vacate
dismissal was accepted for filing by sending to the correct email
address without knowing the court's silient denial that was sent
by the court willfully to the extinct email
Appendix#27 California Supreme Court has granted judicial
notice in its July 25, 2018's Order—motion for judicial notice filed
on June 19, 2018, which include (1) the lawsuit of 1:18-CV-01233RC, (2) James McManis's Deposition transcript, (3) Declaration of
Meera Fox, (4) Declaration of Mei-Ying Hu filed on 8/4/2010
Regarding the minor's complaint about Father's physical abuses
Exhibit 1: relevant pages of certified deposition transcript of
James McManis on July 20, 2015

80

Exhibit 2: Declaration of Meera Fox filed in H039823 on
4/24/2017 and also as being Exhibit A to her second declaration
filed in 11040395 on May 10, 2017
Exhibit 3: Declaration of Michael Buzzone which is relevant to
show the "cozy" relationship between McManis Faulkner LLP and
the Justices at California Sixth District Court of Appeal
Exhibit 4: Declaration of Mei-Ying Hu, a teacher at Happy
Childhood in Cupertino, that was filed on August 4, 2010 with the
underlying family case, on the day of parental deprival
Exhibit 5 is the second declaration of Meera Fox filed with
California Sixth District Court of Appeal in this appeal on May 10,
2017
Exhibit 6 is Dr. Jeffrey Kline's Declaration about decoding the
mental illness of Wang, that was filed with Santa Clara County
Court on December 18, 2014, yet the Court kept suppressing the
evidence, for the hidden purpose of assisting James McManis and
Michael Reedy to cause permanent parental deprival.
Appendix#28 Declaration of Meera Fox filed with Ca1.6th
Dist. Court of Appeal on 4/27/2017 in H039823
Appendix#29 Selected pages of the First Amended
Complaitn in 1:18-cv-220571
Appendix#30 Financial conflicts of interest of the Justices at
the US Supreme Court for sponsoring gift solicitation of their
clerks at the American Inns of Court

81

Appendix#31 Temple Bar Scholarship-a gift illegally
targeting at the judiciary position of the Clerks at the US
Supreme Court
Appendix#32 McManis Faulkner's News Release: close
relationship with Chief Justice John G. Roberts- purged in late
January or early February 2018
Appendix#33: News release of McManis Faulkner on October
21, 2017: Pending adjudication of Petition No. 17-256 where
James McManis and Michael Reedy were Respondents, Michael
Reedy was invited to the American Inns of Court's annual meeting
at the US Supreme Court where Justice Kagan was hosting the
event.
Appendix#34: McManis Faulkner's news release of
04/27/2012 which publicized that Michael Reedy was a feature
speaker for the American Inns of Court.
Appendix#35: Declaration of Michael Bruzzone—evidence of
lack of public confidence
Appendix#36 Relevant pages of the case docket of 1:18-cv01233-RC showing the alterations of the case docket at the USDC
in the D.C.
Appendix#37 Letter of the US Supreme Court showing
rejection of filing of Request for Recusal in 18-344
Appendix#38: Selected pages of deposition transcript of
James McManis taken on 7/20/2015
Appendix#39: Selected portion of deposition transcript of
Carroll J. Collins, III, Esq., expert witness of McManis Faulkner
82

law firm, which proved existence of public view that Santa Clara
County Court is a representative client of McManis Faulkner,
LLP.
Appendix 40A: Evidence that Judge Theodore Zayner
misused his being a civil supervising judge, to take the trial
court's files of Shao v. McManis into his chamber on 7/20/2016
Appendix 40B: Evidence that the trial courts records of Shao
v. McManis, after being checked out into Judge Zayner's chamber,
has lost Volume 5 and original deposition transcripts of James
McManis and Michael Reedy that were lodged with Santa Clara
County Court in November 2015 for the jury trial.

III. ADVERSE PRESUMPTION OF CONFLICTS OF INTEREST
THAT MANDATES RECUSAL
As analyzed in details above under Section I, these Justices do have
presumption of conflicts of interest by directly receiving financial
interest from the American Inns of Court (Petition 19-639, App.154-163)
and indirectly from James McManis, the leading attorney who is closely
related to Chief Justice John G. Roberts (Petition 19-639, App.167-68)
and relationship with Michael Reedy (App.174).
Caperton v. A. T. Massey Coal Company, 556 US 868 (2009) has similar
facts where the main issue is "whether the Fourteenth Amendment was
violated when one of the majority justices refused' to recuse himself due
to receiving large campaign contributions." The court held that absent
recusal, the judge would review a judgment of his biggest donor, which
was "a serious objective risk of actual bias that required recusal." See,
83

also, Canon 3(c)(1) of Code of Conduct for the U.S. Judges. This Court in
Caperton held that actual bias is not necessary and proof of actual effect
on the consideration of the Petitions is not necessary, even if such proof
were possible.
Any reasonable person knowing all of the facts as stated above will
believe that Petitioner is unable to receive unbiased votes from these
Justices as they have conflicts of interest in deciding this Petition.
There are 15 questions asking for Certiorari:
In concealing App.55, it is unlikely that these Justices could decide
without bias on Question #4 on illegality of the oral argument waiver
notice.
In having financial interest with the American Inns of court, it is
unlikely for these Justices to vote fairly on Questions #7, #8 and #13 for
this Petition.
In knowingly concealing James McManis's deposition transcript
admitting to his attorney-client relationship with Santa Clara County
Court, there is a public view that Petitioner cannot get certiorari in
Question #9 and #10.

IV. ACTUAL PREJUDICE MANDATES RECUSAL
While actual prejudice is not required for recusal, Petitioner has
already suffered actual prejudice:

84

The Clerks' Office has at least 7 times in purging court's
records, as discussed above. In this Petition, 151 pages of
Appendix were concealed.
This court as led by Chief Justice Roberts has failed to decide
the Amicus Curiae motion of Mothers of Lost Children in 18569.
This Court as led by Chief Justice Roberts has discriminated
against Petitioner in failing to decide 7 Requests for Recusal.
The dismissal of the DC Circuit Case of 19-5014 and the USDC
in DC's case of 1:18-cv-01233 are likely caused by Chief Justice
John G. Roberts, Justice Clarence Thomas and Justice Ruth
Bader Ginsburg who are alumni judges of the DC Circuit
Judge Rudolph Contreras's sua sponte dismissal order of January 17,
2019, did not mention any names of these Justices even though there
were default requests pending since October 19, 2018 against these
Justices. The DC Circuit's sua sponte dismissal order of November 17,
2019 did not mention a major ground of changing venue, i.e., the
undisputed fact that three Justices of this Court are alumni Judges of
the DC Circuit and Chief Justice Roberts made a finding on October 10,
2018 that such relationship would create conflicts of interest, yet there
was no discussion at all on this, even after Petitioner filed a Petition for
Rehearing of the July 31, 2019 Order based on the same ground—lack
of stating all relevant facts on this issue.
Judge Contreras allowed Attorney General to file an Interpleader
without the need to apply for an order which violated the rules of
procedure and the Attorney General's Interpleader was regarding these
Justices. In the beginning of the complaint of 1:18-cv-01233, Judge
85

Contreras held up docketing by 10 days until being pushed by the third
party server but concealed the name of the first defendant, Chief
Justice Roberts.
Therefore, any reasonable person knowing the facts would believe
that the dismissal of 19-5014 and 1:18-cv-01233 are at least caused by
Chief Justice John G. Roberts, Justice Clarence Thomas and Justice
Ruth Bader Ginsburg.
The 19-5014 is still pending with the DC Circuit, thus, there is
direct conflicts of interest for these 7 Justices to vote on this Petition.
Petitioner respectfully moves recusal of the 7 Justices who are
Appellees in 19-5014.
I swear under penalty of perjury under the law of the -U.S. that the
foregoing is true and accurate to the best of my knowledge and made in
good faith.
Dated: December 16, 2019
/s/ Yi Tai Shao
Yi Tai Shao

VERIFICATION/AFFIDAVIT FOR THE REQUEST FOR RECUSAL
(19-639) AND CERTIFICATE OF GOOD FAITH
I, Yi Tai Shao, swear under the penalty of perjury under the laws of the
U.S. that all the facts stated in the Renewed Request for Recusal of the
seven Justices and the attached 44 pages of evidence are all true and
accurate to her best knowledge.

86

I, Yi Tai Shao hereby certify that this Request for Recusal is presented
in good faith and not for any other purposes and well supported by the
prevailing laws and rules.
Respectfully submitted,
Dated: December 16, 2Q19

z

Yi Tai Shao
I
Yi Tai Shao SHAO LAW FIRM, PC
4900 Hopyard Road, Ste. 100; Pleasanton, CA 94588-7101
(408) 873-3888

/ Lev

Si A

, ' ut
2/ 4/ 7 .1_9

87

Additional material
from this filing is
available in the
Clerk's Office.

